<html>
<title> - POLAR BEAR TROPHIES IMPORTATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                    POLAR BEAR TROPHIES IMPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                             H. J. RES. 59

 To disapprove a rule affecting polar bear trophies from Canada under 
 the 1994 amendments to the Marine Mammal Protection Act issued by the 
   United States Fish and Wildlife Service of the Department of the 
                                Interior

                               __________

                     APRIL 30, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-18

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 41-402cc                    WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 30, 1997......................................     1

Text of H. J. Res. 59............................................    52

Statement of Members:
    Cunningham, Hon. Randy ``Duke'', a U.S. Representative from 
      California.................................................    49
    Miller, Hon. George, a U.S. Representative from California...    49
    Norwood, Hon. Charlie, a U.S. Representative from Georgia....     2
    Peterson, Hon. Collin, a U.S. Representative from Minnesota..     3
    Young, Hon. Don, a U.S. Representative from Alaska; and 
      Chairman, Committee on Resources...........................     1

Statement of Witnesses:
    Akeeagok, David, Grise Fiord, Northwest Territories, Canada..    32
    Gosliner, Mike, Marine Mammal Commission.....................    13
    Hofman, Dr. Robert J., Marine Mammal Commission..............    13
    Jones, Dr. J.Y., Dublin, GA..................................    37
        Prepared statement.......................................   115
    Jones, Marshall, Assistant Director for International 
      Affairs, U.S. Fish and Wildlife Service, DOI...............    11
        Prepared statement.......................................    56
    Morrill, Dr. William, Safari Club International, Herndon, VA.    33
        Prepared statement.......................................    81
    Reynolds, Dr. John E., III, Chairman, Marine Mammal 
      Commission.................................................    13
        Prepared statement.......................................    61
    Rose, Dr. Naomi, Marine Mammal Scientist, Humane Society of 
      the United States..........................................    35
        Prepared statement.......................................   101
    Rowland, J. Roy, former Congressman, Dublin, GA..............     5
        Prepared statement.......................................    54
    Stansell, Ken, USFWS, Department of the Interior.............    11
    Young, Michael, USFWS, Department of the Interior............    11

Additional material supplied:
    Testa, J.W., Ph.D.: Importation of Polar Bear Trophies From 
      Canada Under the 1994 Amendments to the Marine Mammal 
      Protection Act (report)....................................    69

Communications submitted:
    Bass, Hon. Charles F.: Letters to--
        Dort S. Bigg dated:
            October 19, 1995.....................................   136
            February 24, 1997....................................   133
        Hon. Don Young dated April 25, 1997......................   125
    Bigg, Dort S., to:
        Hon. Charles Bass dated
            September 21, 1995...................................   134
            February 7, 1997.....................................   131
            March 18, 1997.......................................   129
            April 4, 1997........................................   126
    Kearney, Kathy: Memorandum of October 31, 1995, to John 
      Jackson on importation of polar bear hunting trophies......    93
    Jones, Marshall: Letter of May 8, 1996, to Dort S. Bigg......   137
    Rose, Naomi A., Ph.D.: Letter of November 6, 1995, to 
      Director, Fish and Wildlife Service on proposed rule.......   109



                    POLAR BEAR TROPHIES FROM CANADA

                              ----------                              



                       WEDNESDAY, APRIL 30, 1997

                          House of Representatives,
                                    Committee on Resources,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 11:00 a.m., in room 
1324, Longworth House Office Building, Hon. Don Young (Chairman 
of the Committee) presiding.

STATEMENT OF HON. DON YOUNG, A U.S. REPRESENTATIVE FROM ALASKA; 
              AND CHAIRMAN, COMMITTEE ON RESOURCES

    The Chairman. Today we will hear testimony on H.J. 
Resolution 59, a resolution I introduced with Charlie Norwood, 
Collin Peterson, Ron Paul and Saxby Chambliss.
    The purpose of this resolution is quite simple: to 
disapprove the Department of Interior's final rule on the 
importation of certain polar bear trophies.
    Since coming to Congress, I have been involved with the 
Marine Mammal Protection Act of 1972. Over the years, I have 
worked hard to improve the law, and we were successful in 
enacting a number of positive changes in 1994. One of those 
provisions gave the Secretary of the Interior the authority to 
issue permits to Americans to import legally taken polar bear 
trophies from Canada both before and after 1994.
    Our intent in passing this provision was clear: we wanted 
to make it easier for hunters to import polar bear trophies 
into the United States as long as that activity did not 
adversely affect Canadian polar bear populations. There are 
about 13,120 polar bears in the Northwest Territories of 
Canada. According to scientific experts, this population is 
growing by three to five percent each year. Since the annual 
quota for sport hunting was 132 animals in 1996, this harvest 
rate has little if any effect on any of Canada's polar bear 
populations. What this activity is doing, however, is providing 
thousands of dollars to the Canadian Eskimos, allowing them to 
maintain their cultural heritage.
    On July 17, 1995, 15 months after the enactment of the 1994 
amendments, the Department of the Interior issued a proposed 
rule allowing all pre-1994 polar bear trophies to enter the 
United States. This was a correct interpretation of the 1994 
amendments.
    We must not lose sight of the fact that these are dead 
bears. I mean long dead. While we cannot wish them back to 
life, we can attain benefits to finance conservation programs 
of Alaska and Russia polar bear research populations by 
collecting a $1000 fee for each bear that is imported into this 
country that has been long dead.
    Furthermore, the 1994 amendments authorize the Secretary to 
make a determination on whether an import permit should be 
issued based on these criteria. The Canadian management program 
is based on scientifically sound principles that ensure the 
sustainability of the polar bear population. The management 
plan is consistent with international agreements. And the 
issuance of a permit is not--will not contribute to illegal 
trade in other bear parts.
    On February 17, 1997, after years of delay, the Department 
of Interior issued its final rule. In a move that would make 
any world class gymnast blush, the Department did a complete 
reversal without even the benefit of a trampoline, and 
announced it would now limit the importation of both new and 
old polar bear trophies to only five of the 12 identified 
populations in the Canadian Northwest Territories.
    While no rational explanation was provided, it is clear 
that in a mad rush to avoid litigation the Department has 
ignored both the scientific data and the Congressional intent 
contained in the 1994 MMPA amendments.
    The bottom line in this debate is the specific criteria 
outlined in the 1994 amendments have been satisfied. Canada has 
a growing population of polar bears. Sound conservation 
programs exist in the Northwest Territories, and a limited 
number of polar bear trophies will not undermine the 
sustainability of these populations. Even the Marine Mammal 
Commission, no fan of the polar bear provision, believes the 
Department has erred in not allowing the importation of polar 
bear trophies from additional populations.
    I look forward to hearing from my distinguished witnesses. 
I want to know why it took nearly three years to reach the 
wrong conclusion, why the Department is holding Canada to a 
higher standard than Congress intended in 1994 and when the 
Department intends to decide on the seven other polar bear 
populations.
    [Correspondence may be found at end of hearing.]
    The Chairman. Are there any other opening statements? Mr. 
Norwood.

 STATEMENT OF HON. CHARLIE NORWOOD, A U.S. REPRESENTATIVE FROM 
                            GEORGIA

    Mr. Norwood. Thank you very much, Chairman Young, and 
members of the Committee for inviting me here this morning to 
be part of the Resource Committee's hearing on the Fish and 
Wildlife Service interpretation of the 1994 Marine Mammal 
Protection Act.
    Two of today's panelists hail from the 10th District of 
Georgia. Congressman Roy Rowland represented part of the 
current 10th District in Washington for 12 years. While in 
Congress, Dr. Rowland emerged as a bipartisan leader on a wide 
range of issues including health care reform, the environment, 
budget deficit reduction and transportation. Dr. Rowland is 
currently the director of the Georgia Medicaid program, and I 
would like to welcome Dr. Rowland.
    And continuing with my statement, Mr. Chairman, with the 
second panelist seated I would like to welcome the second 
Georgian, if I may.
    The Chairman. You can welcome all of Georgia. You have got 
great people in that great State. You don't have many turkeys, 
you know.
    Mr. Norwood. Some folks can't kill them.
    If the Marine Mammal Protection Act of 1994 was supposed to 
facilitate the import of legally harvested polar bears, why are 
we here this morning, Mr. Chairman? I do not want to impose on 
your generosity for the time that you have given me today, but 
I will sum up simply by saying that the intent of Congress was 
that the Secretary may issue a permit for the importation of 
polar bear parts, other than internal organs, taken in sport 
hunts in Canada, including polar bears taken prior to the date 
of the enactment of the Marine Mammal Protection Act amendments 
of 1994.
    I just--I want some questions answered here today and hope 
that we will get them. And it is simply this, were these bears 
legally harvested. It is my understanding that they were and 
each applicant for import certainly must have proven that.
    Is the importation of these bears consistent with the 
conventional international trade of endangered species of which 
the United States is a partner? I understand it is and that 
each applicant must produce the proper permit to prove that.
    Does Canada have a sound professional management plan in 
place for polar bears? I understand that Congress determined it 
does when it commended this act in 1994.
    Will the native villagers benefit from the sport hunting of 
these polar bears? I understand that they benefit enormously 
and they will hear much testimony--we will hear much testimony 
today supporting this.
    And finally and perhaps most importantly, will there be any 
negative impact on the current population of polar bears in 
Canada? I understand that the opposite is true here, that part 
of the $1000 permit fee is used for polar bear conservation.
    Mr. Chairman, thank you very much again for holding this 
hearing and allowing me to testify. I look forward to hearing 
the testimonies of our witnesses. To me it is just basic common 
sense to allow the importation of these polar bear trophies. 
And I believe it should be allowed without any additional 
delay.
    The Chairman. I thank the gentleman. Any other opening 
statements?
    Mr. Vento. Mr. Chairman, I would like to welcome my 
colleague from Minnesota. He is from the temporary 6th Great 
Lake of Western Minnesota, so I am pleased to see him here and 
his work on the Congress is well known. Thank you.
    The Chairman. Any other opening statements? If not, I will 
recognize Mr. Peterson, because he is the seat member, and then 
Dr. Rowland, who is not seated but fondly remembered.

 STATEMENT OF HON. COLLIN PETERSON, A U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. I want to thank you 
and the other members for the opportunity to speak here today. 
As I think you are aware, there are approximately 400 polar 
bears that were legally harvested under Canada's polar bear 
management program and are currently in storage in Canada 
because they have not been able to be imported into the United 
States. Many of these animals belong to my constituents, and 
they are very frustrated, they thought this had been fixed.
    Congress amended the Marine Mammal Protection Act of '94 to 
allow the importation of these legally harvested trophies. The 
language of this amendment specifically refers to the imports 
of bears harvested prior to the amendment's adoption and it 
said the Secretary--and I quote, ``the Secretary may issue a 
permit for the importation of polar bear parts taken in sport 
hunts in Canada, including polar bears taken but not imported 
prior to the date of the enactment of the Marine Mammal 
Protection Act amendments of 1994, to an applicant which 
submits with its permit application proof that the polar bear 
was legally harvested in Canada by the applicant.''
    Now I think what is in question is some report language 
that accompanied this legislation that said it is the 
Committee's intent that all conditions outlined by this 
amendment concerning the importation of polar bear trophies 
taken prior to the adoption of this amendment have to be met.
    We think the correct interpretation of the requirements 
mandated by this language is that permit applicants must prove 
that they had the proper international permit, the animal was 
properly tagged and it can be proven that the animal was 
legally harvested.
    The Department of Interior interpreted the language 
originally this way when they issued their proposed rule July 
17, 1995, which as you pointed out, was almost 15 months after 
the enactment of the bill. And under this proposed rule, all 
polar bears harvested before the date of the final rule were 
grandfathered in and could be imported into the United States 
if it could be proven that they had not already been imported, 
that the specimen is sport hunter trophy, that the bear was 
legally harvested and that it was consistent with CITES.
    However, the final rule published on February 18, 1997, 
made significant changes in this grandfather clause. In regard 
to previously taken polar bears, the final rule only allowed 
for the importation of polar bears from populations deemed to 
be currently sustainable. And as a result, the majority of the 
bears that have been previously taken are still in freezers up 
in Canada and my constituents and a lot of your constituents 
are paying storage fees and are very unhappy.
    According to a review of the Administrative record of the 
Department of Interior on this rulemaking, in my opinion no new 
biological or scientific evidence was uncovered which warranted 
a change in the grandfather clause. Rather I think the 
Department reacted to advice from the Solicitor's Office 
regarding fears of a lawsuit from anti-hunting organizations if 
the grandfather clause remained as proposed. My question is why 
didn't the Solicitor's Office offer this interpretation when it 
reviewed the proposed rule in 1995? Wildlife management 
decisions should be made on the basis of sound scientific data 
and not on the basis of threats or fears of retaliatory 
lawsuits.
    And the change in this grandfather clause ignores one of 
the primary motives that Congress had in amending the Marine 
Mammal Protection Act of '94, which was to allow the 
importation of these bears. In addition, the issue of the 
grandfather clause was further complicated by the long time it 
took the Department to act on the direction of Congress. And 
this 15-month delay between the passage of the act, the 
proposed rule and the 20-month wait, does not conform with the 
intent and the expectation of Congress.
    I had a long discussion with former Congressman Jack 
Fields, who is the author of this, and he does not think that 
this rule is in conformance with what he thought he was trying 
to accomplish.
    This has also been pointed out, these bears are dead. This 
is not going to have any negative effect on anything at this 
point and the money, the $1000 permit fee, is going toward 
polar bear conservation.
    In closing, preventing the importation of these bears 
doesn't make any sense. It ignores the intent of Congress. It 
would have no negative impact on current polar bear population 
and denies a valuable source of funds for polar bear 
conservation. Accordingly, I think the Department should issue 
new regulations grandfathering all these bears and move in the 
direction that we originally intended.
    Thank you very much and I would be happy to answer any 
questions.
    The Chairman. Thank you, Congressman. Congressman Rowland.

   STATEMENT OF J. ROY ROWLAND, FORMER CONGRESSMAN, DUBLIN, 
                            GEORGIA

    Mr. Rowland. Thank you very much, Mr. Chairman and members 
of the Committee. I appreciate the opportunity to be here 
today, and especially to visit with many of you who are 
longtime friends. I don't envy you the task that you have in 
governing our country, but I commend you, every Member of 
Congress, for shouldering that responsibility. And I want to 
thank my good friend and my Congressman Charlie Norwood for 
introducing me today.
    One of the issues that I dealt with while a Member of the 
House is before you today. Dr. J.Y. Jones, a close personal 
friend and medical colleague, and also one of my constituents, 
approached me with the surprising information that a person 
from the United States could go to Canada and hunt polar bears 
legally under the auspices of their hunting program but could 
not legally bring their trophy home.
    I have the utmost regard for J.Y. He is an excellent 
physician and surgeon with the highest personal ethics. He is 
greatly respected by the people in the community where we live 
and he gives generously of his time and resources and has done 
a total of 14 medical missionary trips to Honduras and Jamaica. 
After receiving additional information from him, including the 
fact that he personally had a polar bear trophy in Canada he 
couldn't bring home, I agreed to look into the matter and get 
back with him on the feasibility of amending the Marine Mammal 
Protection Act to allow such import.
    It appeared to me that such a restriction was unwarranted 
in view of the fact that our neighbor Canada is perfectly 
capable of managing their own wildlife resources without our 
interference.
    I discussed the import ban informally with my friend Gerry 
Studds, then Chairman of the House Merchant Marine and 
Fisheries Committee, and he expressed an interest in changing 
the law to allow import of polar bear trophies under certain 
conditions. He told me that he would have his staff research 
the law and prepare a proposal that might remove this 
restriction. Other interested Members of Congress specifically 
wanted to allow importation of polar bears already stored in 
Canada that had been legally taken. Also, those bears already 
harvested could have no effect on the polar bear population, so 
it made good sense to allow their importation if they had been 
legally taken.
    The opportunity to make this change in the law came shortly 
thereafter as the reauthorization of the original Marine Mammal 
Protection Act came up for consideration. I talked with 
Congressman Studds on several occasions and our staff people 
worked together on the amendments. Other Members of Congress 
gave input and advice concerning the pending legislation, and 
an effort was mounted to include the needed language. The 
actual legislation was finalized in early 1994.
    The record is clear that the Merchant Marines and Fisheries 
Committee was indeed successful in resolving the issue and 
subsequently recommended to the full House of Representatives 
that legally harvested polar bear trophies from Canada be 
permitted importation into United States by our citizens who 
had hunted there in the past or would do so in the future. 
After the House and Senate resolved their differences, the 
legislation was passed by both houses of Congress and it was 
signed into law by President Clinton on April 30, 1994, which 
is incidentally exactly three years ago today.
    Now I have learned still today, despite the interval of 
three years, not a single polar bear trophy has been imported 
under the amended law. What is even more mind boggling is that 
a simple bipartisan mandate of the Congress has been expanded 
far beyond its original intent, I am told, to include 30 pages 
of rules, a complicated application process, and provisions 
attached that even the name of the individual hunter applying 
for an import permit must be published in the Federal Register. 
I am also surprised that polar bears already stored in Canada, 
legally harvested in years past and specifically approved by 
Congress for import, have been held up indefinitely by a broad 
and bewildering array of polar bear subpopulation evaluations.
    I have been asked to testify as to what the intent of 
Congress was in 1994 on this issue. I believe that Congress 
expected the issuance of polar bear import permits to begin 
immediately. I know that I did. After five months of inaction 
on the new amendment, I joined a group of concerned Congressmen 
who sent a letter to Secretary Babbitt of the Interior 
Department urging him to use the authority granted him to 
develop interim regulations for polar bear imports so that 
waiting sportsmen could proceed with the importation without 
further delay. We recommended that if he believed a more 
detailed regulatory process be necessary, he could undertake 
that proceeding thereafter. Instead, the United State Fish and 
Wildlife Service developed these voluminous and dilatory 
regulations we have today.
    In summary, it was never the intent of Congress, based on 
my knowledge, that we attempt to micromanage the Canadian polar 
bear conservation system or to force Canada into new 
international agreements, but that we simply allow U.S. hunters 
to apply for and receive a permit to import their trophy if a 
few simple criteria were met, the most key of which being that 
the bear was legally taken in Canada and not illegally imported 
already. The regulations appear to go far beyond Congressional 
intent. They are yet another example of the tendency toward 
over-regulation in many levels of the Federal bureaucracy.
    I urge the members of the Committee to do what is necessary 
to carry out the will of Congress as passed in 1994, and I 
thank you, Mr. Chairman.
    [Statement of J. Roy Rowland may be found at end of 
hearing.]
    The Chairman. Thank you, Doctor. First, I agree with you 
100 percent because I am one of the few people who have been on 
the Fishery Committee for the last 25 years and now we took it 
to this Committee. It was a bipartisan effort. Everybody agreed 
to it, including the Administration. And now we find out that 
we have people that think that they are God and can tell the 
Congress to go fly a kite. And that is why we are going to vote 
on this before the House and find out whether they are God or 
not. It is wrong when they go against the intent, including the 
report language. These bears are dead. It is the government of 
Canada that does recognize it. And what we tried to do in this 
business, by the way, was to improve the polar bear population.
    I think we will hear testimony later on that this increased 
the value of the polar bear. It has protected the young. It has 
protected the sows. It has really, in fact, been harvesting the 
old boars, which are much more valuable. And that was the 
intent of the Congress. No way would Gerry Studds support 
something that wasn't that. And to have now an agency saying 
this is incorrect, I want to thank you for your memory. That is 
one reason I think that the institution should have a longer 
term instead of shorter term, so they do have some knowledge of 
what was the intent and what people thought they were doing and 
what does happen at a later date.
    Collin, I am going to ask a question. If you can, how do 
you think that the polar bear populations are affected by 
prohibiting the importation of these bears?
    Mr. Peterson. I don't think it has a negative effect, 
because if we would allow the importation, the fees would be 
paid and that money would go to conservation. It is going to 
have no negative effect in terms of harvest, because no one is 
questioning that we are going to have to have rules going 
forward and that there is going to have to be a management plan 
in place and that we are going to have to make sure that the 
rules are such that we are doing the right kind of 
conservation. But these dead bears have been taken and it is 
not going to have any impact one way or the other on 
conservation other than negative because we don't have the 
money.
    The Chairman. Under the present rule as being proposed by I 
don't know who, is there any conservation in that regulation 
that you can see?
    Mr. Peterson. Not that I can see.
    The Chairman. That is what my interpretation is, there is 
none whatsoever. And if I remember correctly, Dr. Rowland, is 
it not true that we had testimony from our scientists, the 
Marine Mammal Commission, and the Canadian scientists that were 
meeting their goal was to promote and actually improve the 
polar bear population? That was testified to this Committee, is 
that correct?
    Mr. Rowland. My recollection, that is exactly correct.
    The Chairman. I thank the gentlemen. The gentleman--Mr. 
Vento.
    Mr. Vento. Well, thank you, Mr. Chairman. I understand that 
there is some controversy now. I was reading ahead to the other 
testimony and, just to understand the intent of this particular 
rule change, the intent here is just to knock out this rule. 
And then what would we be left with then?
    The Chairman. What would be left is a rule that follows the 
intent of Congress. They have to come back----
    Mr. Vento. I think the thing is that they had proposed a 
rule in '95. This law passed in '94. They proposed a rule in 
'95 and then they came up with this final rule in February or 
March.
    The Chairman. Which is a reversal of the original rule.
    Mr. Vento. So we knock it out with this. Then what do you 
put in its place?
    The Chairman. Nothing until they issue another rule with 
the intent of Congress. The have to follow Congress.
    Mr. Vento. It would be an indication that we disagree with 
it.
    The Chairman. There might be a--in fact, I may issue a 
citation of contempt of Congress, because they are not 
following our lead in what the Congress passed. They do not 
have that authority. You should accept that.
    Mr. Vento. I am simply asking what the effect would be of 
knocking out the rule. That is what--and so you are saying----
    The Chairman. They have to come back with a rule.
    Mr. Vento. They would have to come back, but I mean the----
    The Chairman. The intent----
    Mr. Vento. The issue is that there is--you will see in the 
next testimony that there is an issue here about the 
retroactivity, in other words, dealing with the grandfather. 
That is one issue. And then there is another issue 
perspectively. So what is the message we are sending here? The 
intent is obviously we want to grandfather importation of bear 
trophies that had been harvested between '94 and '97, is that 
the intent? You want to grandfather those in because the rule 
wasn't out and folks were operating on the basis----
    The Chairman. And prior, as long as they are legally taken.
    Mr. Vento. Well, whatever. That is one of the intents, but 
then perspectively is it the intent not to deal with the--and 
they, incidentally, talk about 14 areas in Canada, not 13--but 
is it the intent then to comply with or to then live with the--
they are saying you can hunt in five areas out of the 14 or six 
areas out of the 14. Is the message that you want to send that 
you want--that perspectively that their interpretation of where 
the hunting can be permitted is inappropriate or not?
    The Chairman. It is my intent that we made an agreement 
with Canada. Canada defines scientifically which areas are 
appropriately being hunted. We have now an agency within the 
United States saying without scientific information that you 
cannot hunt in certain areas.
    Mr. Vento. Basically, then, there are two issues, in other 
words. There is the issue of the grandfather for whatever 
reason----
    The Chairman. That is right.
    Mr. Vento.--those trophies are there. Then there is the 
second issue, as I see this, of whether or not--what our 
relationship is with the Canadian permits to hunt for trophies. 
They are permitting them in, apparently, all 14 areas or 
something of this nature and/or 13 of the 14, and we are saying 
that it should be restricted to five.
    The Chairman. Yes, without scientific information, nothing 
to back it up.
    Mr. Vento. OK.
    The Chairman. So what we are doing, we are imposing our 
will against the Canadian government, and I don't think that is 
what we should be doing in the case where we have reached these 
agreements.
    Mr. Vento. Well, I am just trying to understand what the 
issues were, Mr. Chairman. I am just learning about this, but I 
would just point out on page two of the testimony, and, you 
know, maybe Collin or our friend Roy--I am sorry I didn't 
welcome you. I want to recognize our long friendship and work.
    But they point out the Service was required to determine 
under the 1994 amendments in consultation with the Marine 
Mammal Commission that these requirements were met in order to 
allow polar bear trophy imports. As part of these requirements, 
the Service is required to conclude the Canada sport hunting 
program is consistent with the purposes of the 1973 agreement 
on the conservation of bears and is based on scientifically 
sound quotas to ensure, the key word, the sustainability of 
effective population stock. Although these requirements were 
simply stated in the 1994 amendments, they are complex and 
involve multiple issues.
    So I am just--I mean, this is obviously a different 
requirement that they are reading the '94 law in a way that is 
inconsistent. So we will have to try to iron it out, and I 
understand that, Mr. Chairman, further that this is--apparently 
the Solicitor, Mr. Leshy, from Interior interpreted or was 
responsible for being consulted, or someone in his office, with 
regard to this issue.
    So I do think that, you know, since what you are really 
doing is knocking out the rule here, there is nothing being put 
in its place and I think we better get back to look at whether 
the law and what the law requires, because in fact if that 
interpretation is correct by a court, they could put in a rule 
and effect they want and they may apparently be challenged.
    The Chairman. That may be true, but they cannot, regardless 
of what they think they will be challenged about, go against 
the will of Congress. If they in fact implement a rule that we 
have directed them to do so and then they are taken to court, 
we will win. I mean, this idea--every time I hear one of my 
agency say oh, we might have to go to court, so--they hide 
under the table. Any time the Sierra Club or Friends of the 
Earth or Friends of the Animal group threaten a lawsuit, they 
go hide under the table.
    Mr. Vento. Well, Mr. Chairman----
    The Chairman. And we told them--this Congress told them 
what to do.
    Mr. Vento. Well, I think that it may be the law of 
unintended consequence that you didn't intend or Mr. Studds 
didn't or Mr. Fields didn't, but if this particular type of 
change did occur, I think we can rationally look at it and make 
a determination. And what I am suggesting to you is that maybe 
the answer is not so much in dealing with the rule but 
fundamentally looking at the law to see if there is a basis for 
what their action is.
    The Chairman. We will look at that. We don't believe it. I 
had my lawyers look at it. We don't think there is any 
rationale. Listen to what you just said about if they are 
difficult, was it, and it is complex. I mean that is pure 
gobbly goop. That is all it is, just gobbly goop. It is a way 
to delay the----
    Mr. Vento. It is a complex and involved multiple issue.
    The Chairman. Multiple issues. They don't define the 
multiple issues. They do not give us any scientific 
information. They do not consider Canada at all, and that was 
not the intent of the legislation.
    Mr. Vento. I think the witnesses adequately answered the 
questions.
    The Chairman. All right.
    Mr. Vento. Mr. Peterson or Mr. Rowland?
    Mr. Peterson. I associate myself with the Chairman's 
remarks.
    The Chairman. The gentleman from Georgia. Excuse me, in all 
due respects I have to recognize members of the Committee 
first.
    Mr. Norwood. Sure.
    The Chairman. The gentleman from California.
    Mr. Calvert. I have no comment, Mr. Chairman.
    The Chairman. The gentleman from----
    Mr. Walter Jones. I have nothing.
    The Chairman. OK, the gentleman from Georgia.
    Mr. Norwood. Just very briefly, Mr. Chairman. I do thank 
these witnesses. And I was not in Congress when this was 
passed, but it clearly seems to everyone I can talk to that the 
Department did not write rules and regulations, and both of our 
Members here just said that they did not write rules and 
regulations according to the will of Congress. In fact, as we 
get on into this hearing a little bit, a lot of the thoughts 
from the USFWS, you will find that had they used a little 
better data, for example some data as well as Canada might have 
used, they may too have come up with a different decision. So I 
thank you gentlemen very much for being here. And thank you, 
Mr. Chairman.
    The Chairman. The gentleman from Hawaii. You were here, I 
believe, were you not?
    Mr. Abercrombie. I beg your pardon?
    The Chairman. You were on the Committee when this passed.
    Mr. Abercrombie. Yes. Mr. Chairman, is the next witness to 
come up Mr. Jones to address the----
    The Chairman. Yes.
    Mr. Abercrombie. [continuing]--process of----
    The Chairman. Yes.
    Mr. Abercrombie. I will withhold questions until that time.
    The Chairman. All right, thank you, gentlemen. I appreciate 
you being here. Have a good flight, Doctor.
    Mr. Rowland. Thank you.
    The Chairman. The next witness is Mr. Marshall Jones, 
Assistant Director of International Affairs, U.S. Fish and 
Wildlife Service, Department of Interior. He is accompanied by 
Mr. Ken Stansell and Mr. Michael Young. Dr. John E. Reynolds, 
III, Chairman of Marine Mammal Commission, is accompanied by 
Mr. Mike Gosliner and Dr. Robert Hofman. Mr. Jones.

      STATEMENT OF MARSHALL JONES, ASSISTANT DIRECTOR FOR 
  INTERNATIONAL AFFAIRS, U.S. FISH AND WILDLIFE SERVICE, U.S. 
  DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY KEN STANSELL AND 
                         MICHAEL YOUNG

    Mr. Marshall Jones. Thank you, Mr. Chairman. We appreciate 
your giving us this opportunity to testify before you today on 
House Joint Resolution 59, which would disapprove our recent 
regulations for the import of polar bear trophies from Canada.
    As you mentioned, Mr. Chairman, I have with me Mr. Kenneth 
B. Stansell, who is the Chief of our CITES Management 
Authority, and Mr. Michael Young from the Department of 
Interior's Solicitor's Office, as well as members of Mr. 
Stansell's staff who prepared the rule.
    Mr. Chairman, the development of these regulations over the 
past three years has involved some of the most controversial 
and difficult issues that I have had to deal with in 20 years 
in the Fish and Wildlife Service.
    Recognizing, Mr. Chairman, your views that the intent of 
Congress was clear, unfortunately the record which was 
compiled, the comments that we received during the comment 
period and our own review of the legislation indicated to us 
that we had to make findings not only involving future polar 
bears which might be taken in Canada, but also the bears that 
were already taken and that were sitting in storage. Our goal, 
Mr. Chairman, was to import, to allow the import of as many 
polar bears as meet the requirements of the law.
    Before I address some of the problems, Mr. Chairman, I 
would like to emphasize some of the positive aspects of this 
rule. First of all, Mr. Chairman, we determined that five of 
Canada's 12 polar bear populations fully meet the criteria that 
were contained in the law and the 1994 amendments, and we have 
approved them for import. The first 16 permit applications have 
now been approved and another 45 permit applications are now in 
the review process. So that within the next few weeks, Mr. 
Chairman, we believe that we will have approved 50 to 60 polar 
bear trophy imports.
    Mr. Chairman, I have the first tag which would be applied 
to the first permit, and we are anxious for the day when this 
tag is put on a trophy that is brought into the United States. 
And that is followed by as many trophies as will meet the 
requirements of the law.
    Also, Mr. Chairman, we were able to approve these 
applications, I believe, because of our decision to address 
each of Canada's polar bear populations separately. We believe 
that this approach was fully justified by the amendments to the 
law and the Marine Mammal Act itself. If we had chosen the 
alternative approach, to look at Canada on an all or none 
basis, Mr. Chairman, we were concerned that our decision would 
have had to be that because some areas of Canada didn't meet 
the criteria, all of Canada would have failed to meet the 
criteria and we wouldn't have been able to allow import of any 
trophies on that basis. We avoided that outcome, Mr. Chairman, 
by using the population by population approach.
    I would also point out, Mr. Chairman, that we did not 
disapprove any populations. We approved some. We deferred 
others until we receive additional scientific data. No polar 
bear population has the door closed to import, although some 
people wanted us to disapprove some of those. We did not take 
that step. We have left the door open, and as soon as we can 
get new information which indicates they qualify under the 
criteria, we are prepared to approve them.
    Mr. Chairman, we have received new information from Canada 
and are now working on a proposal to make new findings 
regarding two additional areas in Canada in addition to the 
five which have already been approved.
    Now, Mr. Chairman, let me briefly address the major concern 
which has been raised about the regulations, our decision that 
all trophy imports must meet the criteria in the 1994 
amendments regardless of when they were taken. We originally 
proposed a blanket finding which would have allowed import of 
all trophies taken before the 1994 amendments. However, the 
Marine Mammal Commission and other commenters clearly 
demonstrated that this approach was not legally defensible 
based on the specific requirements in the law and in the House 
Committee report which accompanied it. Thus in our final rule, 
we were obligated to apply the same criteria to all trophies, 
regardless of where they were taken.
    Finally, Mr. Chairman, let me say in closing that we 
recognize that some are disappointed with our final rule and 
believe it was too restrictive. On the other hand, Mr. 
Chairman, I think this morning you will also hear from some who 
believe the rule was too permissive. Overall we believe that we 
have accurately and fairly implemented the '94 amendments in a 
way which supports Canada's polar bear management program, 
which we acknowledge is the best in the world, as well as the 
traditional hunting rights of Canada's native people and the 
legitimate desires of sport hunters.
    For these reasons, Mr. Chairman, if House Joint Resolution 
59 is enacted and the regulation is disapproved, we do not 
believe that under the existing provisions of the law we would 
be able to prepare a new final rule which is substantially 
different from the existing regulations. On the other hand, Mr. 
Chairman, we are prepared to work closely with you, with sport 
hunters and with Canada to facilitate the approval of all 
populations which meet the requirements of the law, to make 
those decisions promptly and to open as many doors as we can to 
the import of polar bear trophies.
    Thank you, Mr. Chairman. I am prepared to answer any 
questions which you may have.
    [Statement of Marshall Jones may be found at end of 
hearing.]
    The Chairman. Dr. John Reynolds.

STATEMENT OF DR. JOHN E. REYNOLDS, III, CHAIRMAN, MARINE MAMMAL 
       COMMISSION, MIKE GOSLINER AND DR. ROBERT J. HOFMAN

    Dr. Reynolds. Mr. Chairman and members of the Committee, 
thank you for inviting the Marine Mammal Commission to testify 
on House Joint Resolution 59. I am accompanied today by Michael 
Gosliner, the Commission's General Counsel, and Robert Hofman, 
the Commission's Scientific Program Director.
    The Marine Mammal Protection Act amendments of 1994 
authorized the Department of the Interior to issue permits for 
importing polar bear trophies taken legally by applicants in 
sport hunts in Canada provided that certain findings are made. 
The statute places responsibility for making these findings on 
Interior and ascribes a consultative role to the Commission. 
The Commission commented on each finding required under the 
amendments. We did so to meet our responsibility to see that 
the Marine Mammal Protection Act is faithfully implemented as 
enacted. The Act clearly provides for authorizing the hunting 
of polar bears and other marine mammals and the importation of 
trophies in certain circumstances. And our statutory 
responsibility is to see that all applicable conditions are met 
before such taking or importation is allowed. We believe the 
final rule reflects the statutory criteria.
    My oral statement will be confined to the finding that 
Canada's sport hunting program is based on scientifically sound 
quotas, ensuring the maintenance of the affected population 
stock at a sustainable level. Although the Service suggested in 
its proposed rule that this, as well as other findings, were 
not applicable to those trophies taken by U.S. hunters in 
Canada prior to the enactment of the amendments, a plain 
reading of the statute and the accompanying statement of 
legislative intent indicate otherwise. Our comments therefore 
questioned the basis upon which the Service proposed 
differential treatment of trophies taken before and after 
enactment of the amendments.
    With respect to the finding of scientific soundness as it 
relates to pre-amendment trophies, the Commission noted that 
the nature of the required findings suggested that historical 
data be used and recommended that, at a minimum, the findings 
be based on present day quotas and management practices for 
each population.
    The other key question for the Service to resolve was 
whether the findings of scientific soundness were to be made 
for the individual polar bear management units in Canada, a 
single Canadian population, or for some other division of the 
populations. The Commission generally supported the use of 
management units as being appropriate and recommended that the 
final rule link the management units to the Marine Mammal 
Protection Act's definition of population stock.
    The Service published its final rule in February, making 
affirmative findings for five of the 12 management units used 
by Canada when the rule was proposed. The Commission believes 
that the final rule better reflects the statutory requirements 
and that the final rule is a considerable improvement over the 
original proposal. In the Commission's view, the Service, based 
on the record before it at that time, could not have sustained 
affirmative findings for any of the other seven management 
units.
    With final rules now in effect, there are three options on 
how to proceed. First, amend the rule based on revised 
interpretations of the statute. Second, amend the Act to 
establish different requirements, or third, work within the 
existing regulatory framework to consider additional data as 
they are developed. The Commission recommends the third option, 
i.e. working within the existing regulatory framework.
    This option enables the Service to consider new information 
and proposed revisions to the regulations as warranted. As 
described in Commission publications, this is something that is 
described as adaptive management, where you continually take in 
new data and revise your regulations.
    Shortly after publication of the final rule, the Commission 
obtained the most recent information on the status of Canadian 
polar bear populations and changes to Canada's management 
program. To assist in its review of this information, the 
Commission contracted with J. Ward Testa, Ph.D., a population 
biologist and biometrician. Dr. Testa's report, appended to my 
full statement, takes into account comments from the 
Commission, its Committee of Scientific Advisors, and outside 
reviewers.
    The report concluded that the Canadian polar bear program 
is consistent with generally accepted principles of sound 
resource management, that the methods and models used by Canada 
to set polar bear quotas are conceptually sound, and that 
available data supported Canada's realignment of the Queen 
Elizabeth Islands, Parry Channel and Baffin Bay management 
units into five management units.
    Using the criteria adopted by the Fish and Wildlife Service 
in the final rule, the report also examined whether polar bears 
from other management units might now qualify for import 
permits under the Act. It concluded that two of the revised 
management units, Lancaster Sound and Norwegian Bay, appear to 
meet the necessary criteria. Based on a review of the report, 
the Commission, in consultation with its Committee of 
Scientific Advisors, has recommended that the Service, if it 
concurs with our analysis, initiate a rulemaking to make 
affirmative findings for these two additional management units.
    As for the remaining six management units, the Commission 
believes that there are problems that Canada still needs to 
resolve. We are well aware that some groups believe that the 
rule did not go far enough to allow imports of pre-amendment 
trophies or polar bears taken in other management units and 
that other groups felt that the Service's rule was too 
permissive. We believe that the Service's final rule accurately 
and appropriately implemented the plain language of the 
amendment.
    And I also would be happy to answer any questions you may 
have.
    [Statement of Dr. John E. Reynolds, III may be found at end 
of hearing.]
    The Chairman. All right, thank you. Mr. Jones, you 
mentioned you approved five of the 12 populations. Does the 
government of Canada believe all 12 populations have satisfied 
the criteria of the act?
    Mr. Marshall Jones. Mr. Chairman, I don't think the 
government of Canada has given us a direct comment or an 
evaluation.
    The Chairman. How did you base it?
    Mr. Marshall Jones. We used data.
    The Chairman. If they didn't give you a comment, what data 
did you use?
    Mr. Marshall Jones. Mr. Chairman, we used data that was 
provided by Canada. We had to do the evaluation. They provided 
the data.
    The Chairman. OK, now, in 1994 the government of Canada has 
communicated to the Committee and the United States that sport 
hunting of polar bears does not adversely affect the 
sustainability of the country's polar bear population and does 
not have a detrimental effect on maintaining these populations 
throughout their range. That was 1994. Now you just said they 
have the best system in the world.
    Mr. Marshall Jones. Yes, sir.
    The Chairman. What criteria--what did you base your finding 
on?
    Mr. Marshall Jones. Mr. Chairman, we based our finding on 
the criteria that were contained in the law, and particularly 
one of the criteria which was the most difficult, the criteria 
that there must be scientifically based quotas which will 
provide for a sustainable population.
    The Chairman. OK, and what--let us say Canada comes down 
with a quota all the rest of the regions of two bears or three 
bears or four bears per region.
    Mr. Marshall Jones. Mr. Chairman, if there were an enforced 
quota for each of the populations in Canada, then most likely 
we would have been able to approve all of the populations.
    The Chairman. But would you make a definition of enforced 
quota? What would be your idea of an enforced quota? Would it 
be two or three or five or ten or 15 or 20?
    Mr. Marshall Jones. Mr. Chairman, Canada has the scientific 
basis to set their quotas, and we wouldn't try to tell them 
what those quotas should be.
    The Chairman. Without being argumentative, then, how can 
you deny the rest of the regions if they set the criteria. They 
submitted it to you, and yet you denied it. What basis--who 
told you to do this?
    Mr. Marshall Jones. Mr. Chairman, there are provinces in 
Canada which don't have enforced quotas. The government of the 
Northwest Territories has what we think is a superb system. It 
involves quotas and it involves checking and it involves a 
scientific basis. Some of the other provinces, however, Mr. 
Chairman, either have quotas which are guaranteed and are not 
adjusted no matter what happens or don't have quotas at all.
    The Chairman. OK, the Marine Mammal Commission believes 
that the Lancaster population should be approved. Why is there 
disagreement?
    Mr. Marshall Jones. Mr. Chairman, we don't have a 
disagreement.
    The Chairman. Then why isn't it approved?
    Mr. Marshall Jones. We received the information too late to 
include it in the final rule which we published.
    The Chairman. OK, now my last statement. The thing that 
probably concerns me most, I sat in this Committee. We worked 
this out. We had the agreement. The Administration signed the 
bill. And you are sitting there and telling me you are going to 
work with everybody involved and you are going to do it in an 
expedited manner. Why should I believe you?
    Mr. Marshall Jones. Mr. Chairman----
    The Chairman. 1994, what year is--what day is today? Three 
years ago. What makes me think that you are going to do 
anything better?
    Mr. Marshall Jones. Mr. Chairman, the issue that we had to 
deal with, as I mentioned, were very difficult. And 
understanding that your belief was that the intent of Congress 
was clear, when we read the law and when we looked at the 
criteria, we found that it required a lot of judgments on our 
part.
    The Chairman. Did the Solicitor tell you that you were 
going to be sued if you issued regulations as you proposed 
originally?
    Mr. Marshall Jones. No, sir. Mr. Chairman, we discussed the 
possibility that we could be sued. No one told us that we 
would.
    The Chairman. By who?
    Mr. Marshall Jones. By those who were unhappy--would be 
unhappy with the regulations.
    The Chairman. But why--but you have a responsibility as an 
agency to implement the act of Congress. That is your 
responsibility, is it not?
    Mr. Marshall Jones. Yes, sir, it is.
    The Chairman. Then why do you run when someone threatens to 
sue you?
    Mr. Marshall Jones. Mr. Chairman, we don't run.
    The Chairman. You write a regulation that is contrary to 
what the Congress intended to do.
    Mr. Marshall Jones. Mr. Chairman, we hope that these 
regulations are not contrary to the intent of Congress. We 
didn't believe they were. We believe that we implemented the 
law, but we had to address all the issues that were raised on 
the record.
    The Chairman. My time is about up. What defense do you 
have, including your lawyers, about the bears, and how many are 
there that have been dead--why cannot we import those bears if 
they are legally taken under Canadian law, receive the moneys 
that we would receive from them, put it into polar bear 
research? Who insists upon not allowing those dead bears in? I 
can understand the future bears, but I cannot for the life of 
me understand a bunch of dead bears laying away in the closet, 
and who is going to sue you over a dead bear? I would love to 
take that case, by the way. And I am not a lawyer and I would 
win it. Some of you lawyers don't believe it. I would win that 
hands down. Who is going to sue you?
    Mr. Marshall Jones. Mr. Chairman, it is probably better 
that I not speculate about who might sue us.
    The Chairman. I would like to know, because someone told 
you or someone told Katie McGinty or someone told Bruce Babbitt 
that you are going to be sued. Now who threatened to sue you?
    Mr. Marshall Jones. We have no formal threats of 
litigation.
    The Chairman. Then why do you worry about it?
    Mr. Marshall Jones. Mr. Chairman, we are allowing the 
import of bears already taken from all the populations which in 
our judgment meet the criteria of the law, and we will allow 
the import of further bears from every other population which 
meets the criteria in the law.
    The Chairman. But what I am suggesting is what is the 
objection of a bear that was legally taken. Why not allow that 
bear to be taken by that hunter, bring into the United States, 
pay the $1000 fine, fee, whatever you want to do, pay it? Why 
not? I mean, what is the rationale for not doing that?
    Mr. Marshall Jones. Mr. Chairman, personally I agree. What 
you have said makes perfect common sense. Mr. Chairman, however 
it is not what we believe the law requires. We have to make 
these judgments about the criteria and whether it came from a 
population which----
    The Chairman. My time is up, but one last one. Where does 
it say in the law, lawyer--you are getting paid for this. Where 
does it say in the law that you can be sued by allowing the 
importation of pre-killed 1994 bears?
    Mr. Marshall Jones. Mr. Chairman, it says nowhere in the 
law.
    The Chairman. Well, then you said the law wouldn't allow 
you to do it.
    Mr. Marshall Jones. Mr. Chairman, I say that our duty was 
to implement the law and apply the criteria that were in it, 
and it was our judgment--Mr. Chairman, we made a proposal based 
on the way we wanted to read the law.
    The Chairman. It wouldn't change that.
    Mr. Marshall Jones. We made a final rule based on what our 
final judgment, this is what the law really says with all of 
its requirements.
    The Chairman. Where does it say that you cannot import 
those bears, Mr. Lawyer?
    Mr. Marshall Jones. Mr. Chairman, it says that they----
    The Chairman. I am talking to your--you have got legal 
counsel there. You are paying them enough. Where does it say--
in fact, the original proposal of the rule said you could and 
would allow the importation of pre-killed 1994 bear, every one 
of them. Now where and who suggested the change and on what 
grounds?
    Mr. Marshall Jones. Mr. Chairman, let me ask Mr. Young from 
our solicitor's office to----
    The Chairman. That is what I am saying. Where did it come 
from?
    Mr. Young. Thank you, Mr. Chairman. To answer your 
substantive question, the reason the Fish and Wildlife Service 
found that it could not allow importation of non-approved 
populations, even for the pre-amendment bears, is because one 
of the criteria that we have to find before issuing permits 
says that Canada has a sport hunting program based on 
scientifically sound quotas, ensuring the maintenance of the 
affected population stock to a sustainable level----
    The Chairman. OK, stop right there. You are telling me if 
the species is sustainable and the Canadian government verifies 
that, all right, that the bear kill prior to 1994 effects the 
sustainable yield of the bear population?
    Mr. Young. Mr. Chairman, that is not the particular 
criteria that we had to find here.
    The Chairman. Well, I am--again, I am trying to get back to 
what grounds are you worried about allowing those 1994 pre-
killed bears into the United States?
    Mr. Young. We basically were not in a position to say that 
for the shared populations, Baffin Bay, Davis Strait and 
others, certainly South Hudson Bay and Foxe Basin, they are 
shared stocks.
    The Chairman. What difference does it make? This bear is 
dead. He doesn't even--I mean, this bear is no longer existing. 
It is a hide. It is a nothing. It is $1000 for polar bear 
research.
    Mr. Young. Mr. Chairman, that distinction was not made on 
the face of the statute.
    Mr. Abercrombie. Mr. Chairman----
    The Chairman. Boy, I will tell you, this is like dealing 
with the doughboy. Yes, sir.
    Mr. Abercrombie. Mr. Chairman, inasmuch as your time is up, 
would you like some help?
    The Chairman. Yes, would you like--yes, Mr. Neil.
    Mr. Abercrombie. Thank you. Gentlemen, I think you have 
gotten yourself into a bind here. You are not really answering 
the Chairman's question, or maybe you are and that is part of 
our difficulty. Your assignment was not to try and find ways 
that this couldn't be done. Your assignment really was to see 
how this could be implemented. Now I can see how you could 
answer the Chairman saying well, how does a dead bear affect 
this adversely. You could say well, that bear was alive, it 
could have been part of a procreation process, that this dead 
bear and all the other dead bears were part of a process which 
was antithetical to the aims of the legislation and apparently 
antithetical to the Canadian management program, because by 
killing these bears you were preventing reproduction and so on 
and so forth.
    But all the testimony that I see is to the exact opposite. 
There is an increase in the number of bears. Now maybe not in 
every region. Again, I can understand how you would do--
possibly do regions and some may be sustaining themselves and 
reproducing maybe in excess in some regions and not in others, 
but you also testified that the Canadian plan--I don't know the 
word was excellent or what it was, but it was the finest plan.
    If there is no showing that the population is being 
reduced, if there is no showing that the Canadian management 
plan is not adequate to the task at hand, and if the management 
plan is consistent with international agreements and it doesn't 
contribute to any illegal trade, then at least on the question 
of those bears which are already taken, it seems to me the 
importation should have proceeded at pace.
    Now if the counsel could answer that question. I am unable 
to understand from the answer you gave why there is no 
importation if the points that I just raised are factual and a 
reasonable summation of the situation.
    Mr. Young. Thank you. I will attempt to give a more 
complete answer. Essentially taking the examples of the 
populations I have mentioned, South Hudson and Davis Strait and 
Foxe Basin, those populations are shared between the Northwest 
Territories and the provinces of Ontario and Quebec as well as 
Labrador. The situation we faced was the fact that there are no 
enforceable quotas in either of those provinces. It is true the 
Northwest Territories has a managed program based on a 
scientific basis on quotas, but the population in its entirety 
does not. We felt that did not meet the requisite criteria as a 
prerequisite to issue permits.
    Mr. Abercrombie. OK, stop there. Then what you are saying 
is the Canadian management program is not scientifically sound 
and does not establish either quotas or other criteria that 
would allow for the importation of bears. You are saying the 
Canadian program is not adequate, but you are relying on, if I 
understand your testimony correctly, their submission of data 
to you.
    Mr. Marshall Jones. Mr. Abercrombie, if I could answer your 
question.
    Mr. Abercrombie. Please.
    Mr. Marshall Jones. And it might be helpful to take a 
specific example. Baffin Bay, we have a map here, Mr. 
Abercrombie and Mr. Chairman----
    Mr. Abercrombie. I can see it in part.
    Mr. Marshall Jones. [continuing]--which shows the 14 
existing new polar bear management areas.
    [The map may be found at end of hearing.]
    Mr. Marshall Jones. Baffin Bay is one of the areas which we 
did not yet approve. The population in the Baffin Bay area 
right now is judged by the data provided by Canada to be 
declining. And we have indications that there is concern within 
Canada about that population, not because of things happening 
in Canada, but because that population is shared with Greenland 
where there are no quotas right now.
    So, Mr. Chairman, that is an example of an area where there 
is substantial hunting, where there are many bears that have 
been taken in the past but because the law, finally, makes no 
distinction about when the bear was taken--the law requires 
that we make the same finding whether the bear was taken in the 
past and is already dead or whether the bear is going to be 
taken next year. We still have to make the same finding, Mr. 
Chairman.
    Mr. Abercrombie. All right, you say that, but believe it or 
not, I spent some time reading theology and you are making a 
theological statement there. If someone wants to sue you on 
that basis, I mean, that is part of your job. Let them go ahead 
and sue, but that really is a theological--this is Aquinas and 
Erasmus arguing and meanwhile there are poor people outside the 
church. That to me--you already--it doesn't make sense. You 
have already set up the criteria with respect to sustainability 
of the polar bear population in--is it five of the 12 or eight 
of the--I have forgotten.
    Mr. Marshall Jones. I beg your pardon?
    Mr. Abercrombie. You have already set up criteria, is it 
five of the 12 or eight of the----
    Mr. Marshall Jones. Five of the 12 have been approved so 
far.
    Mr. Abercrombie. Five of the 12, so you just move ahead in 
that. And as far as--and what I meant by theology is that dead 
bears, maybe that is true, but to reach back in effect to me is 
ex post facto. Then don't allow them to come in from Baffin 
Bay. You have already said that the way you are going to 
implement this is to do it region by region, right? Then just 
move ahead and do it and let the dead bears come in. That would 
save yourself a lot of grief. If somebody doesn't like that, 
let them sue you or something. That is what we have got--you 
have got lawyers that are paid seven days a week to deal with 
that. You have to have--and I am very jealous.
    I will tell you I am jealous of legislative prerogative. I 
realize that these days everything wants to move to the 
executive. We want the king--everybody has to bow to the king. 
That is one of the reasons I am allowing the commoner to sue 
the king. I think that is democracy, but the legislature, for 
good or for ill, we are all in this body here, the members 
sitting at this table here, are here because we are elected by 
our constituents. And we are here to try and do the job. And I 
have been on the winning side and the losing side of 
legislative issues, as has the Chairman and every Member here. 
But I certainly expect, having given my best effort, that the 
legislative intent is going to be obeyed absent some ruling to 
the contrary by competent authority.
    Now I don't think it is the business of--and I have been 
supportive of the Department of the Interior and Fish and 
Wildlife in every way that I possibly can be, because I think 
you have a tough job and a national question, national 
standards to maintain over and above regional considerations. 
And that is not always easy to do.
    But in this particular instance it seems to me you have 
done the job clearly adequately, but now you are getting into 
the minutia, virtually theological in nature, of 
differentiation that may be of concern to theologians, but has 
the practical consequence of actually undermining the 
legislative intent, at least--at the very least with the 
question of those bears that have already been taken and in 
those areas where you have already made a determination that 
you think you understand what the sustainable population 
criteria has to be and that bears can be taken there.
    Now if somebody wants to argue about Baffin Bay and perhaps 
one or two other areas that you have in mind, that is a 
separate issue that shouldn't prevent you from having the bears 
come in from the other areas where there is a sustainable 
population. Isn't that a reasonable position?
    Mr. Marshall Jones. Sir, what you have said and what the 
Chairman said previously, I told you, I agree makes common 
sense, but it also is contrary to the specific language of the 
law which tells us regardless of when the bear was taken, 
whether it is already dead, whether it has been taken in a 
future year----
    Mr. Abercrombie. Well, then----
    Mr. Marshall Jones. [continuing]--still have to make the 
same----
    Mr. Abercrombie. Well, OK, I disagree with that. I think we 
should move ahead in some other--just let me finish this. If 
that was the case, because of the length of time, I don't think 
it is fair. And I think over this time--I guess this was passed 
when you were Chair, before Mr. Miller became Ranking Member.
    The Chairman. No, no, Mr. Studds was the Chair.
    Mr. Abercrombie. Excuse me, Mr. Studds was Chair. This is 
not a partisan issue here in this Committee, at least I think I 
can state that for the record. Because of the length of time 
that passed, I think you should have informed whoever was Chair 
of the Committee that the legislative intent was being 
undermined by your interpretation of the language of the bill 
as written and that it was going to be very difficult for you 
to implement the legislative intent because of the language, 
whether by default or design. To come to the Committee at this 
stage and say the language as written prevented us from doing 
what you sought to get done, OK, that is our fault if that 
happened. But it is up to you as the implementors--and this is 
a well-established legislative process, legislative standard.
    Legislators are not supposed to write rules and 
regulations. If we did that we would be here 365 days and 
nights a year and you would be writing legislation as long as 
your arm. We are to establish the policies and the intentions, 
and it is your job to put in the rules and regulations. If you 
think in good faith that the language put forward and the 
legislative intent inherent in that language disenables you 
from establishing rules and regulations which will carry out 
that intent, it is up to you to get back to the Committee and 
let them know that, not go three years and then come up and say 
well, this is the only way we can do it, it is too bad you guys 
didn't do a good legislative----
    The Chairman. The gentleman is absolutely correct. The 
thing that irritates me most, you--maybe not you personally, 
but the agency, both agencies, supported the language as we 
wrote the bill. You supported it and said it would work. It was 
our intent to import those dead bears and to improve the stock 
of the remaining bears. And we have done part of that thanks to 
Canada and the Eskimo people in Canada. But this is ridiculous. 
I mean, I have yet to hear anybody justify not allowing the 
dead bears in. This has got to be the dumbest thing I have ever 
heard in my life, that you are going to punish the Canadian 
people, disrespect the Congress, because you won't import dead 
bears that no longer can do anything. I mean, I say this is why 
we have a real problem with government today, is you.
    The gentlelady.
    Mrs. Cubin. Thank you, Mr. Chairman. I appreciate that you 
agree with the common sense stated by Mr. Abercrombie and the 
Chairman. And God forbid we ever use common sense in 
government, I guess.
    You made a statement, Mr. Jones, and I wrote it down and I 
am anxious to see the transcript of this hearing, because I 
wondered when you said it if it was a Freudian slip. You said 
we based the final rule on what we wanted the law to say. And I 
just couldn't help but think that that must be a Freudian slip 
because we are running into that a lot.
    Yesterday we had a hearing on the process, the procedure 
before declaring the Escalante--before the President declared 
Escalante a national monument, and their testimony yesterday 
was that there was a leak to the press nine days before the 
declaration was made and that they did adequate communicating 
with members of the delegation from Utah and all the people in 
Utah in those nine days to make that good policy.
    The thought came to me--I couldn't get that out of my mind 
last night, because we are talking about different things. It 
seems that the--under Mr. Rashid--I am talking about him maybe 
more than I am you right now, at least in my assessment of 
that, that maybe it appeared you guys didn't think we were 
going to be here another two years and so you could--you didn't 
have to implement the things that we wanted to be done. And I 
am not asking for verification or denial or anything. These are 
just, you know, thoughts that have come to me because of all of 
these problems we have faced. It is not just this rule. It is 
many rules throughout the entire Interior Department.
    And I think that, judging from what I see, the problem lies 
more in the Interior Department than it does in Agriculture, 
than it does in most of the other departments. I don't 
understand that exactly, but I thought, you know, the three 
branches of government were established for a good reason. And 
Mr. Abercrombie referred to this. The Legislative Branch is to 
pass the laws. The Judicial Branch is to interpret the laws, 
and the Executive Branch is to administer the laws. But when 
the Executive Branch doesn't use common sense, as you say you 
didn't, or chooses to ignore the legislative intent, then they 
are constitutionally violating their role, which is to enforce 
the law.
    And I think we have to--we, the Congress, the Republicans, 
the Administration, we have got to start talking to each other 
about the same thing, about our role, and we have got to start 
developing some trust with one another, because we are going to 
be working together for a long time. And these are serious 
issues and these are about our country and our people. I guess 
I have rambled on long enough.
    What happens when this sort of abuse occurs is then that 
forces the Congress' hand to change a law that might be a good 
law and nobody wins, because like Mr. Abercrombie said, we 
should not be putting things that are in rules and regulations 
into law. That is too inflexible. It is too hard to get an act 
of Congress. We shouldn't have to do that in order to get the 
will of the Congress forced.
    So I just ask you as far as you can--I realize the whole 
thing is--you know, you are not the top guy on the totem pole. 
I know that, but please try harder.
    Mr. Abercrombie. Would you yield a moment?
    Mrs. Cubin. You bet.
    Mr. Abercrombie. In that context, I have the criteria. Can 
it be explained to me again why hasn't there been the 
importation of those bears already taken? Because I have the 
law right in front of me and it specifically says that that is 
to be one of the things that is to be done. And if the law as 
we wrote it was unclear, which of the five points in it do you 
think needs to be rewritten, and if so, how?
    Mr. Marshall Jones. Sir, if I could first address the issue 
that was raised regarding common sense. I hope the record----
    Mr. Abercrombie. I didn't bring up common sense.
    Mr. Marshall Jones. No, sir, I understand.
    Mr. Abercrombie. I took too long to do that. I was being 
theological.
    Mr. Marshall Jones. Sir, I simply wanted to make the point 
that I hope the record shows what I intended to say and what I 
think I said was the proposed rule was based on the way we 
wanted to read the law. The final rule, we believe, is the 
way--is based on the way the law is really written. That was 
the distinction.
    Mr. Abercrombie. OK.
    Mr. Marshall Jones. Now, sir, in terms of the criteria, 
there is one that is sort of buried in the paragraph above that 
talks about the hunter must show proof that the bear was 
legally taken. Then there are Roman numerals, one, two, three 
and four. And particularly for Roman numeral two, the statement 
that there is a sport hunting program based in scientifically 
sound quotas ensuring the maintenance of the affected 
population stock at a sustainable level, that has been the one 
that has been most difficult for us, because, Mr. Abercrombie, 
as I mentioned, for example, for Baffin Bay----
    Mr. Abercrombie. Yes.
    Mr. Marshall Jones. That is a population which data from 
Canada clearly shows right now is declining and one which we 
have information that has been provided to us from Canada that 
indicates they are concerned, that they find that disturbing. 
The reason is not because of what is happening in Canada, and 
that is why I say again Canada's management overall is very 
good, but in that case of that particular population, on the 
Greenland side they don't have quotas.
    Mr. Abercrombie. Well, then why can't you just 
differentiate those areas and don't allow for importation 
from--that would send a message to the Canadians or to anybody 
else.
    Mr. Marshall Jones. Well, sir, in fact what we did was we 
said we cannot approve that area right now because the bears go 
back and forth.
    Mr. Abercrombie. Now why not the others? You would allow 
broad discretion in this law, very broad discretion. And I 
think you could have put it together. I am not trying to pick 
on you folks, but in some respects--and I was being entirely 
facetious when I brought up the theological argument. It is 
possible to make a distinction without a difference. And I 
think you are making distinctions here without a difference in 
terms of thwarting the effect of what the law is supposed to 
do.
    At some point--you say Canada's sport hunting program is 
based on a scientifically sound quotas ensuring the maintenance 
of sustainable population on the whole. On the whole, if I 
understood your testimony correctly, and I have to take you at 
your word in it, Canada is doing that. Is that a fair 
statement?
    Mr. Marshall Jones. On the whole, yes, sir, but we cannot 
say that all areas in Canada fit----
    Mr. Abercrombie. That is not what the law--I won't go on 
and on with it, but that is not what the law says it has to be 
in all areas. And we are giving you that leeway. We are not 
trying to write rules and regulations for individual regions or 
provinces in Canada, but you have that power. You have the 
power to do that. All I am saying is that I think, and I will--
and if Mrs. Chenoweth would allow me the--and Mrs. Cubin would 
allow me to steal into their time----
    The Chairman. The lady's time is up and it is Mrs. 
Chenoweth's time now.
    Mr. Abercrombie. Well, could I have 30 seconds of your 
time?
    The Chairman. Would you restart that, please. Go ahead. 
Mrs. Chenoweth, will you yield to the gentleman?
    Mr. Abercrombie. Would you yield me 30 seconds?
    Mrs. Chenoweth. Yes, Mr. Chairman, I am happy to yield to 
the gentleman.
    Mr. Abercrombie. Thank you. You could have, and still can, 
I think, deal with the question of those trophies that have 
already been taken unless you can show they were illegally 
taken. And I think you could by the use of the system that you 
set up to regard certain areas as being--as fulfilling all of 
these five criteria, move forward at least in those areas with 
the ability for Americans to be able to take these trophies and 
bring them back to America. And I think that you would--and if 
we need then to clear up language with respect to the rest of 
it, I think certainly the Chairman would be open to those 
suggestions. Thank you.
    The Chairman. The gentlelady.
    Mrs. Chenoweth. Thank you, and I am happy--I just want to 
make a couple of statements, and then I am happy to yield my 
time back to the Chairman to dispense however he wishes.
    I appreciate the brilliant questioning from the gentleman 
from Hawaii, but I do want to say that I find very little, a 
very thin nexus--I don't find a nexus at all in the rationale 
we heard today from these witnesses. And Aquinas is a very fine 
work, Summa Theologica. I am not Catholic, but I recommend 
anybody read it. It is an outstanding work. There is no nexus 
here, though.
    I am as amazed as anyone else in this listening audience 
that we could see the will of Congress thwarted by the 
rulemaking process, but I would like to yield back the balance 
of my time to the Chairman.
    The Chairman. I thank the gentlelady, and I will yield to 
the gentleman from Georgia, Mr. Norwood.
    Mr. Norwood. Thank you very much, Mr. Chairman. I am 
looking forward to this. Mr. Jones, are you an attorney?
    Mr. Marshall Jones. No, sir, I am not. I am a biologist.
    Mr. Norwood. Mr. Chairman, are our witnesses under oath?
    The Chairman. No.
    Mr. Norwood. Be careful, because I am very interested in 
your answers to some questions I want to ask you. How many 
polar bear--I am no attorney either, so, you know, don't worry. 
How many polar bear trophies are now in storage in Canada?
    Mr. Marshall Jones. Sir, we don't have a way to know that. 
We have inquired with Canada. They cannot give us a number. We 
have heard various numbers, but I am not in a position to 
verify how many there are.
    Mr. Norwood. Well, will you do a best guess.
    Mr. Marshall Jones. Probably several hundred, but I can't 
say beyond that.
    Mr. Norwood. Have any of those trophies been imported from 
Canada since 1994?
    Mr. Marshall Jones. No, sir, not yet.
    Mr. Norwood. So nothing has happened since 1994 when 
Congress passed a law indicating, and incidentally signed by 
the President, indicating pretty clearly that one of the things 
we wanted to do was to allow our constituents who had polar 
bears in freezers in Canada to be able to bring them home. 
Would you--just between me and you, would you sort of agree 
that is what the 103rd Congress was trying to say?
    Mr. Marshall Jones. Sir, I am not sure if I want to try to 
comment on the underlying intent. What I can comment upon is--
--
    Mr. Norwood. I insist!
    Mr. Marshall Jones. [continuing]--what the law says.
    Mr. Norwood. You have to understand the intent to write a 
rule or regulations. I insist you comment on what you thought 
Congress was trying to do.
    Mr. Marshall Jones. Sir, we read the law on its face and we 
read the Committee report, and we drew our conclusions from 
what was on the record.
    Mr. Norwood. All right, now we have Federal laws. I am just 
trying to figure this out. We have Federal laws and generally 
they are written by a Congress who have attorneys advising 
them. And what you are saying is that the lawyers in Congress 
didn't understand the statute they were writing, but only your 
attorneys could interpret the statute that we wrote, is that 
what you are saying?
    Mr. Marshall Jones. No, sir.
    Mr. Norwood. Well, tell me how is it that you say you had 
to write these rules and regulations because your attorneys 
told you X, Y, Z? You wrote these based on what your lawyers 
told you.
    Mr. Marshall Jones. Sir, we based our decision to prepare 
the regulations based on all the advice that we got from 
lawyers and others that we needed a regulatory process----
    The Chairman. Who are the others? Who are the others?
    Mr. Marshall Jones. Within the agency, those that we 
consulted with.
    The Chairman. If we have to, I will subpoena all the 
records of your rulemaking and find out who the others are 
within the agency. Who in the agency?
    Mr. Marshall Jones. Sir, the staff who worked on it----
    The Chairman. And no one else----
    Mr. Marshall Jones. [continuing]--myself and others.
    The Chairman. No one else contributed to your decision?
    Mr. Marshall Jones. Sir, I couldn't give you a list today 
of all those who were involved, but there were a number of 
people who were involved in the decision.
    The Chairman. The gentleman is recognized for an additional 
five minutes.
    Mr. Norwood. Thank you, Mr. Chairman. You wrote and you 
have said that you wrote these rules based on your 
interpretation of the law, which you viewed as a better 
interpretation of the law than Congress' interpretation of the 
law. Now that is what you said in terms of your rules, is that 
right?
    Mr. Marshall Jones. No, sir. We didn't say that ours is 
better. We didn't say that we had a comment on Congress' 
intent. We read the law. The law says that we can allow polar 
bear trophies into the United States if we make certain 
findings.
    Mr. Norwood. OK, let us try it this way. Maybe you didn't 
say anything. Your actions prove to me that you believe that 
your attorneys interpreted the law of Congress better than the 
attorneys of Congress' interpretation of the law. Let us just 
be honest with each other. Common sense, do you suppose we are 
trying to get these polar bears back home? What do you think?
    Mr. Marshall Jones. Yes, sir.
    Mr. Norwood. Good, that is a great move in the right 
direction. That is what Congress and the President wanted to do 
when the law was passed. Now I am sympathetic with you, because 
I think you understand what this is all about and somebody 
somewhere has put pressure on you to say no, we are going to 
write these rules to suit, and the Chairman keeps trying to 
find out to suit who. Who is so important about our laws that 
they override Members of Congress? Who is it?
    Mr. Marshall Jones. Sir, it was not our view that the 
regulations over--were overriding the intent of Congress or the 
views----
    Mr. Norwood. You know they were. Come on, give me a break. 
You know. You just said what we wanted to do. Who got to you?
    Mr. Marshall Jones. Sir, we published a proposed rule. What 
I said was we published a proposed rule based on the way that--
--
    Mr. Norwood. Doing the opposite of what Congress wanted to 
do, and you know that was the opposite of what Congress wanted 
to do. And I am in sympathy with you, but who got to you? Who 
made you do that?
    Mr. Marshall Jones. Sir, no one made us do it. We made a 
decision based on the whole record. I did mention we received 
comments from the Marine Mammal Commission. We received 
comments from others that pointed out to us that the law did 
not make a distinction between the bears that were already dead 
and the bears that could be taken in the future, and that we 
had to apply the same criteria.
    Mr. Norwood. I presume you won't answer the question. Let 
me ask you this, because you said this in your testimony, that 
you are not prepared to change these rules. Regardless of what 
we do in Congress now to throw out your rules, you are going to 
come back with the same rules, but you will negotiate.
    Mr. Marshall Jones. Sir, based----
    Mr. Norwood. Now you said that and it is in the record. 
Basically you said it doesn't matter what we do, these are 
going to be the rules we are going to stay with, but you would 
negotiate. For whom would you negotiate?
    Mr. Marshall Jones. Sir, I didn't use the word negotiate. 
What we said is----
    Mr. Norwood. It is in the record, by the way.
    Mr. Marshall Jones. [continuing]--we would work with you 
and with the hunters and with Canada to get the data so that we 
could approve as many populations as will meet the criteria 
under the law. And that is fully what we are prepared to do.
    Mr. Norwood. Well, let me just for the record--Mr. 
Chairman, we have a conservation plan for Alaska written by the 
Service, and I quote, ``a polar bear trophy legally killed in 
Canada in the past or from current approved populations may be 
brought into the United States by the hunter once final 
regulations are developed.'' Everybody, I think, that can walk 
and chew gum knows that is what we were trying to do.
    Now lastly, if I may, just out of curiosity, if the Fish 
and Wildlife Service believes polar bear hunting if properly 
overseen can contribute to proper polar bear conservation, do 
you believe that?
    Mr. Marshall Jones. I do, sir.
    Mr. Norwood. Good, I do, too. Why is it that this was not 
addressed in your polar bear conservation plan goal?
    Mr. Marshall Jones. Sir, I am not sure that I can comment--
--
    Mr. Norwood. Why didn't you address the issue of hunting 
and how well that improves conservation in your goals you set 
out, in your conservation plan?
    Mr. Marshall Jones. Sir, since I wasn't involved in the 
preparation of the document, I am not the best person. I don't 
think we have someone here today who can comment on that.
    Mr. Norwood. I am sure your agency will be glad to give us 
an answer in writing.
    Mr. Marshall Jones. Yes, sir, absolutely.
    Mr. Norwood. Is there anybody that you know in your agency 
that you might be willing to categorize as anti-hunting?
    Mr. Marshall Jones. Sir, I have no way of knowing who might 
be anti-hunting or pro-hunting.
    Mr. Norwood. Can we take a survey? How do we find that out? 
I would know in my office if I had people that were anti-
hunting.
    Mr. Marshall Jones. Sir, that is not a criteria for 
employment. The Fish and Wildlife Service is in favor of sport 
hunting. I am personally in favor----
    Mr. Norwood. It seems to be, though, a criteria for writing 
rules that differ from the intent of Congress.
    Mr. Marshall Jones. Sir, we don't----
    Mr. Norwood. We think there is something that stinks about 
this very bad, and the Chairman pointed it out and I want to 
reemphasize this isn't so much about polar bears. This truly is 
about freedom and it is about American's freedom. That is what 
this really is all about. And it is about Federal agencies who 
thwart their nose at Congress saying we know better so we are 
going to write rules regardless of what your intent in the law 
is.
    My last question, Mr. Chairman. You have said, as I 
understand it, and I just want to know something about it, that 
you have approved five of the 12 management areas, is that 
correct?
    Mr. Marshall Jones. Yes, sir, that is correct.
    Mr. Norwood. Does that mean--when you say approved, does 
that mean that approved for hunting and the deportation of the 
bear back into this country? Is that what that means?
    Mr. Marshall Jones. Not approved for hunting. That is a 
decision entirely of Canada, but we--by approved I mean we have 
made the determination that those five populations meet the 
criteria that are established in the law and import is allowed 
into the United States now for bears taken in any one of those 
five populations.
    Mr. Norwood. How does Canada feel about the conservation in 
those five areas? Surely you know. In those 12 areas, how do 
the Canadians feel about it?
    Mr. Marshall Jones. Sir, I----
    Mr. Norwood. I mean, you don't want them imported back into 
this country in hopes that we won't go up there and hunt them. 
Obviously you feel the conservation efforts in those other 
seven management units aren't real good. How does Canada feel 
about it?
    Mr. Marshall Jones. Sir, I would not presume to speak for 
Canada. I don't think it is fair for me to characterize. What I 
can say is we consulted with Canada. They provided us with 
their data and we used their data to make our decisions. The 
law asked us to make the decisions, and so we made the decision 
that five of the 12 areas meet the criteria. In addition, sir, 
we have got new information regarding additional areas, and two 
additional areas we are now working on a finding which----
    Mr. Norwood. State that new information for me, please.
    Mr. Marshall Jones. Beg your pardon, sir?
    Mr. Norwood. State that new information that you have.
    Mr. Marshall Jones. The new information was that they took 
one of their large units and divided it into smaller units, 
into more bite-sized chunks. And those--two of those smaller 
units, Mr. Chairman, we believe now looks very likely that they 
meet the criteria under the law and we are going to publish a 
proposed finding regarding that very soon.
    Mr. Norwood. Did you base your data on 1993/94 data to come 
up with your rules and regulations?
    Mr. Marshall Jones. Sir, we used 1993 and '94 data 
supplemented by additional information where it was relevant.
    Mr. Norwood. What about the last--the data from the last 
three years, what has that shown for non-approved populations?
    Mr. Marshall Jones. Sir, the situation in each population 
may be a little different. And in some cases, as we discussed 
previously, the issue is the fact that there is a lack of 
quotas for control of the polar bear take in areas that are 
shared with either another province besides the Northwest 
Territories in Canada or with Greenland.
    Mr. Norwood. Well, would new data improve our situation 
over five of 12?
    Mr. Marshall Jones. Sir----
    Mr. Norwood. I mean, your data at five of 12 management 
units, in my understanding, is based on 93/94. Now we are some 
three years later and we have new data. Will the new data give 
us ten out of 12, for example?
    Mr. Marshall Jones. No, sir. We have looked at that, the 
new data that is available so far, and what we have been able 
to determine so far is that there are two additional areas 
which very likely will meet the criteria. And we are prepared 
to publish our finding that lays out the reasons for that very 
soon. For the other areas, sir, there still are issues--all the 
data that is available to us right now does not tell us that 
they meet the criteria under the law.
    Mr. Norwood. One final closing comment. You have been very, 
very kind, Mr. Chairman. I would just like to tell you as a 
friend that you have written these rules based on the fact that 
somebody has said well, if we don't write them this way we are 
going to get sued. And I can almost guarantee you you are going 
to get sued either way, which is not your job to worry about 
that. You job is to implement the intent of Congress. And if 
you don't change these rules, you are going to get sued too, so 
don't worry about being sued.
    And I just want you to know that I only have one polar bear 
from the 10th District of Georgia, but as long as I can breathe 
air I am coming after this situation till you change it, 
because you are tramping on the freedoms of Americans and 
Members of Congress.
    And with that, Mr. Chairman, I appreciate your patience.
    The Chairman. Thank you, Mr. Norwood.
    Mrs. Cubin. Mr. Chairman.
    The Chairman. Yes, go ahead.
    Mrs. Cubin. Mr. Chair, may I have a point of personal 
privilege?
    The Chairman. Yes.
    Mrs. Cubin. I would like to first tell these gentlemen that 
my parents taught me you never talk about someone while they 
are in the room, you talk to them, but I have to violate that 
because I don't know where we are. I don't know where this 
leaves us. Where are we? Three alternatives have been brought 
forward by the Department. One of them is that we can change 
the law again.
    The Chairman. Which they would not sign.
    Mrs. Cubin. Oh.
    The Chairman. I can just about guarantee you that. Whoever 
is behind this would never allow it to be signed, but go ahead.
    Mrs. Cubin. OK, so--all right, so I just want to know what 
are our options. I think that we have made it clear how we feel 
about what the intent of this is, what the intent of the 
legislation was. Could somebody tell me how do we get that 
intent implemented?
    The Chairman. No one can really tell because they don't 
want to do it.
    Mrs. Cubin. Well----
    The Chairman. Go ahead and answer.
    Mrs. Cubin. How can we----
    The Chairman. Before you do that, just let me interrupt for 
a moment. Two things occurred to me. This is Monday, July 17, 
1995. The notice announces proposed legal and scientific 
findings for the importation of polar bears, including ones 
taken but not imported prior to the enactment of the 1994 
amendments to the Marine Mammal Protection Act. The purpose is 
to find that Northwest Territories and only the area in Canada 
currently allows sport hunting has monitored enforced sport 
hunting programs that ensures polar bears are legally taken 
consistent with the purpose of the Conservation Act 
scientifically, et cetera, et cetera. It says polar bears taken 
in the Northwest Territory prior to the amendment through the 
effective date of the final rule of the Service proposes they 
issue permits. That is your statement. You recognize that?
    Mr. Marshall Jones. Sir, let me ask Mr. Stansell if he 
recognizes that language.
    The Chairman. That is yours.
    Mr. Marshall Jones. Yes, sir.
    The Chairman. Now we have a different proposal and we still 
haven't--and by the way, I am officially requesting all 
documentations, all correspondence, all input from every party 
involved in these regulations, including any outside influence, 
including other organizations. If you don't send it to me as 
quick as possible, you will be subpoenaed. Is that understood?
    Mr. Marshall Jones. We will provide you----
    The Chairman. I mean every----
    Mr. Marshall Jones. [continuing]--everything that we have.
    The Chairman. Every little iota, all e-mail, all 
correspondence, all memos, everybody involved in this 
decisionmaking process. Secondly, let us--I am an old teacher. 
Read the law. The Secretary may issue a permit for importation 
of polar bear parts, other than the internal organs, taken in 
sport hunts in Canada, including polar bears taken but not 
imported prior to the date of the enactment of the Marine 
Mammal Protection Act of 1994 to the applicant which submits 
with his permit application proof that the polar bear was 
legally harvested in Canada by the applicant. Now you are 
telling me the law, and you base the denial of importation on 
the words--and I think it was two. Canada has a sport hunting 
program based on scientificly sound quotas.
    Now my old teaching tales tell me has is when and had is 
when. I am referring to the bears killed prior to 1994. If that 
word said had a sport hunting program, had a monitored program, 
then you could in fact say you had a reason that it can't be 
documented for importation of those bears. Has is prospective. 
Now, lawyer friend, sitting at the table making big bucks, tell 
me how you could base the law on any other interpretation?
    Has is only to apply to the conservation units set up by 
Canada and in fact scientifically studied and being promoted 
for the continuation of the species. You can not apply has to a 
dead bear.
    Mr. Young. Mr. Chairman, first of all, if I am making big 
bucks, I would like somebody to show me where it says that on 
my pay stub.
    The Chairman. If you don't, you will.
    Mr. Young. In answer to your question, the problem is not 
with the first sentence of 104(c)(5). If the statute had 
stopped there, we would have had full discretion to have issued 
permits for any legally taken sport trophy. The problem was 
with the subsequent language, which----
    The Chairman. Which language?
    Mr. Young. I am sorry?
    The Chairman. Which language?
    Mr. Young. The language in the first sentence where it says 
the Secretary may issue a permit down to the point where it 
says----
    The Chairman. Including polar bears taken----
    Mr. Young. [continuing]--legally harvested in Canada by the 
applicant.
    The Chairman. That is right.
    Mr. Young. But the subsection continues such permit shall 
be issued if the Secretary makes the following findings.
    The Chairman. Right.
    Mr. Young. Which are connected with an and, each one being 
a mandatory criteria.
    The Chairman. Now let me stress the word has and had. Has, 
the intent of this Congress was prospective to protect the 
polar bears, to help the Eskimo people and to make this thing 
work. It does not apply--the has cannot apply to a dead animal. 
It has been dead prior to 1994. If you want to solve this 
problem with a pick, gentlemen, I am going to tell you how to 
solve it. You give me my so many bears that have been legally 
killed, applied for, and allow the importation, then we can 
discuss the rest of it. Because there is no legal ground for 
what you have done. I am not a lawyer, but I happen to be a 
school teacher, and you tell me whether I am wrong with the has 
and had. Had--if it said had, that would mean the bear has been 
killed, had an--I would agree, but has is prospective.
    Mr. Marshall Jones. Sir, if I could respond to that, one of 
the suggestions which was made during the formal comment period 
was that we should look at every year from the day polar bear 
hunting started in Canada and go through year by year and make 
a finding that it was OK in 1973 from this population so 
trophies can come in, but in 1974 it is not and then in '75 it 
is OK again. For exactly the same reason, sir, that you have 
just outlined, we made the decision that no, it doesn't ask us 
to go back and look at each year. It asks us to make a judgment 
exactly what you are saying, how Canada is today.
    The Chairman. OK, before you go on let me--I am going to 
let you get out of here because I know you have been here a 
long time. Please listen to what I have to say on this. It was 
the intent of this Congress that if in fact the permittee 
applied to you, the Secretary of Interior, and Canada said this 
bear was legally taken, it is a dead bear. That is a fact. You 
could issue a permit for the importation of that bear. The 
intent of this legislation was to protect the bear. Again I 
want to stress this. You are dealing with something that is 
impossible. You are protecting something that is gone and will 
never return. If you want to protect the bear, then think of 
the future.
    I won't even argue the five areas. I think you are wrong. I 
won't argue it right now. I think you are not listening to the 
scientific information. I think the gentleman from Georgia is 
absolutely correct, but if you insist on saying the Congress 
did not intend, show me where the law says we did not intend. 
And you can't. The lawyer can't show it to me. You can't show 
it to me. It is not in writing. And I am going to suggest 
respectfully you had better think about this very seriously, 
because like Mr. Norwood said, this is wrong. I sat on that 
Committee. Mr. Neil sat on that Committee and we knew what we 
intended. And you knew what we intended and your lawyers agreed 
with the bill that we passed. And I still want to know who the 
others are.
    Any other questions? You are excused, but you are not 
forgotten. And you will be on my list until you are able to sit 
in my office--and by the way, I suggest you set that up. You 
better find a solution to this problem. You are excused.
    I apologize to panel two. I am going to have some fun here. 
Akeeagok, all right--I should be pretty good with that. I have 
got a lot of my Eskimo friends in Alaska who want to hunt polar 
bears, for those in the audience that smile and grin when 
someone says something. When I am done, that will happen--the 
Northwest Territories; Dr. William Morrill, Safari Club 
International; Ms. Naomi Rose, Marine Mammal Scientist, Humane 
Society of United States, Washington, D.C.; Mr. J.Y. Jones, 
Dublin, Georgia.
    And, Mr. Charlie Norwood, you are welcome to introduce your 
friend from Georgia.
    Mr. Norwood. My friend and constituent. Mr. Chairman and 
members, I would like to introduce you to Dr. J.Y. Jones, who 
also resides in the 10th District. He is an ophthalmologist in 
Dublin, Georgia. J.Y. spends a great deal of his time, Mr. 
Chairman, free time, doing two things, volunteering his medical 
expertise in third world nations, and hunting, among other 
species, polar bears. Most recently Dr. Jones has served as a 
leader in working to reform the Marine Mammal Protection Act to 
permit the import of locally harvested polar bear trophies from 
Canada. It has been four years since Dr. Jones himself legally 
took a polar bear in Canada, yet he has been unable to import 
it.
    And, Mr. Chairman, I feel like that anybody that is crazy 
enough to hunt on ice ought to be able to bring his trophy 
home. So with that I would like to welcome my friend Dr. Jones. 
Mr. Chairman, thank you.
    The Chairman. Dr. Jones, thank you for being here. I will 
go in the order which I introduced you, though. The gentleman 
from far, far away, Northwest Territories. Dave, you are up. 
You are welcome. Welcome to America, and congratulations on 
your efforts to try to preserve the polar bear and conservation 
methods. Go ahead, sir.

STATEMENT OF DAVE AKEEAGOK, GRISE FIORD, NORTHWEST TERRITORIES, 
                             CANADA

    Mr. Akeeagok. Thank you, Mr. Chairman and members of the 
Committee. [Inuktituk spoken] That in my language meant thank 
you for inviting me and giving me a chance to speak. First of 
all, I would like to let you know who I am. My name is David 
Akeeagok. I am an Inuk from Grise Fiord, which is Canada's most 
northern community. I am one of the Board of Directors for the 
Iviq Hunters and Trappers Organization, which represents the 
hunters and trappers interest in management of the wildlife. 
Also all my life I have hunted for food, which includes polar 
bear. Now that I live in the modern world, I also have a nine 
to five job at the local government.
    There are two main reasons why I came here to testify. 
First is to let you know that sport hunting is an important 
part of our social, economic and cultural livelihood. Also, if 
I may be blunt, sir, we would like you to stay out of our 
business and don't tell us how to manage our wildlife. We do 
not desire to judge your system or tell you what to do.
    We have a management system that is working very well and 
we are proud of. What I don't understand is why when scientists 
and us both work together and agree together to have a good 
sound management agreement with our government, now it appears 
your country disapproves it and are now telling us how to live 
our lives.
    Please, Mr. Chairman, I mean please, don't be the second 
culture to try and control our wildlife again. We are losing 
our faith and our self esteem in our culture when people from 
the worlds of trees and the hot sun are trying to control our 
lives.
    We still live off the land for survival. We want to 
continue this for our future generations.
    In our eyes sport hunting is subsistence hunting, since we 
do not increase quota or change current quota that is given to 
us by our government. In saying that, we don't use the fur for 
clothing as much as we used to, but now we can get non-Inuit to 
come up and shoot for us. They can take the worthless parts. We 
will keep the valuable part, which is the meat.
    Also sport hunting is keeping our culture alive by a law 
that a non-Inuk hunter must hunt a polar bear by using 
traditional ways of hunting, which is dog team. And it is an 
important part of our culture.
    It is a very important part of our community economy also 
because the money from the sport hunt that comes into the 
community is very high. Currently it is the third highest 
funding that comes into our community where we live in an 
expensive place where now that we are in the modern world 
everything has to be transported by plane or by an annual 
sealift, which when I mean everything I mean modern day food 
like hamburgers and that, which 50 percent is now coming in 
from the south. A single sport hunter brings to the community 
in around $20,000, and the money is shared all across the 
community.
    Mr. Chairman, let me tell you in 1994 when you approved the 
law for importation of polar bears we said finally the United 
States of America believed and recognized our management 
system, which we are very proud of. But in 1997, which is now, 
we feel you lied to us and betrayed us, and now we feel useless 
and are asking ourselves what did we do wrong. And we hope to 
get some answers.
    Mr. Chairman, Kujanamik, niliatigonaqaagavigna, which I 
mean--which I just said thank you for giving me a chance to 
voice my concerns. And I will try to answer your concerns and 
concerns of others while I am here in your country. Thank you.
    The Chairman. Thank you, David. And I will have a couple 
questions for you. Dr. William Morrill, Safari Club 
International.

 STATEMENT OF DR. WILLIAM MORRILL, SAFARI CLUB INTERNATIONAL, 
                       HERNDON, VIRGINIA

    Dr. Morrill. Thank you, Mr. Chairman. I come before this 
Committee today to talk about conservation, about the best 
large mammal sustainable use system in the world.
    Theoretical conservation was something I learned in school, 
but it is not the subject. Conservation on the ground in places 
like Kane Basin and Resolute, conservation that involves people 
and wildlife alike, that is what we are here to discuss, 
conservation that cuts through theoretical considerations and 
gets to the bottom line. Is it working? The answer for Canada 
is yes. Conservation that cuts through recognizing the 
elasticity of wildlife populations, but nonetheless has the 
foresight to be conservative and to balance that with the 
recognition that the resource will be used.
    I am not here today to talk about why the Canadian system 
won't work. I am here today to talk about that it does, maybe 
imperfectly, but well enough to meet the four conditions U.S. 
Congress put forth in the 1994 amendments to the Marine Mammal 
Protection Act. There is a question that has been asked by a 
number of people, why not most, if not all, of the polar bear 
areas that were open to quota imports when the Canadians 
provided data that supported the harvest and export as outlined 
in the law Congress passed.
    The four conditions are the Canadians have a monitored and 
enforced sport hunting program consistent with the agreement on 
the conservation of polar bears. They meet condition number 
one. The Canadian polar bear hunting program is based on 
scientifically sound quotas, thereby meeting condition number 
two. The export and import are based upon existing treaties and 
conventions, thereby meeting condition number three. And the 
regulations in the final rule make the legal trade impossible, 
thereby meeting condition number four.
    There are two additional outstanding attributes of the 
Canadian system. The first is adaptive management. Adaptive 
management is basically research while the resource is being 
sustainably used. Canada has perfected that, and you can see 
that by the discussions which have gone on so far today and I 
think we will get into with questions. Central to adaptive 
management is the need to monitor, resulting in both learning 
and reducing uncertainty while resulting in adaptation of 
management.
    The second is the flexible quota system of Canada. It is an 
example of using management flexibility. If an over-harvest of 
bears occurs in one or more years, the following years quotas 
are reduced and vice versa. This recognizes people within the 
system of management in Canada.
    In summary, the Canadian system is scientifically based, 
rigorously monitored, strongly enforced, ecologically and 
politically appropriate and flexible for good conservation of 
the polar bear.
    But, the U.S. Fish and Wildlife Service added two 
additional conditions, first that any subpopulation or shared 
population would need to have cooperative management agreements 
in place between various governmental agencies. And this was 
addressed, I think, by Congressman Jack Fields, who said prior 
to the passage of this and for the record, ``let me first state 
that it is not the intent of the language that the Secretary 
attempt to impose polar bear management policy or practices on 
Canada through the imposition of any polar bear import 
criteria.''
    The Inuit are very proud of their management, their 
heritage as hunters and their ability to survive in the 
harshest climate in the Earth. The point that becomes even more 
vivid is the fact that the four conditions put forth by 
Congress were met.
    Data was provided to the U.S. Fish and Wildlife Service in 
January of 1996 that would have allowed for a minimum of two 
more areas and in fact would have allowed under Congress' 
conditions for all but one of the areas to be opened. And yet 
Congress took that--excuse me, Fish and Wildlife Service took 
selective data on December 20, 1996, even beyond that time.
    Sport hunting has reduced the number of polar bears 
actually taken under the quota. It has provide conservation 
incentive to the local people living there. Canada has met the 
requirements that Canada placed upon importation of polar bear 
parts under the 1994 amendments. The U.S. Fish and Wildlife 
Service has, in fact, done exactly what Mr. Fields feared they 
would, and approved only a fraction of the areas that would 
have been approved if they had followed the direction given to 
it by Congress. There was an injustice here. The injustice is 
to Canada and her sustainable use program, to her people who 
lives in the harshest environment of the world and to the great 
white bear itself.
    Safari Club asks you to intervene on their behalf once 
again. Thank you very much.
    [Statement of Dr. William Morrill may be found at end of 
hearing.]
    The Chairman. Thank you, Doctor. Dr. Rose.

  STATEMENT OF DR. NAOMI ROSE, MARINE MAMMAL SCIENTIST, HUMAN 
          SOCIETY OF THE UNITED STATES, WASHINGTON, DC

    Dr. Rose. Good morning. I am Naomi Rose, Marine Mammal 
Scientist for the Humane Society of the United States. On 
behalf of our four and a half million members and constituents, 
I would like to thank you, Mr. Chairman and the members of the 
House Resources Committee, for inviting me here to testify on 
the issue of polar bear trophy imports.
    While the HSUS disagrees with many elements of the Fish and 
Wildlife Service's final rule, we strongly agree with its 
decision to defer approval of trophy imports for seven of the 
12 polar bear populations in Canada. Therefore, we oppose 
passage of House Joint Resolution 59, as we understand its 
purpose is to disapprove the Service's current final rule with 
the goal of gaining import approval for those seven populations 
in a new final rule.
    My testimony today deals principally with our concerns 
regarding the scientific soundness of Canada's management 
program. The IUCN Polar Bear Specialist Group issued several 
resolutions in 1997. One affirmed the basic requirements for 
sound conservation practices. These include accurate 
information on: one, the number, location, sex and age of 
harvested polar bears; two, geographic boundaries of 
populations; three, size and sex age composition of the 
population; and four, rates of birth and death for the 
population. Canada's management program, at best, has accurate 
harvest information. It may have the best information available 
for two, three and four, but the best available information is 
not necessarily accurate.
    Regarding geographic boundaries, the boundaries for 
Canada's polar bear populations are based on the radio 
collaring of a relatively small number of female bears and 
mark-recapture studies of bears from limited accessible areas, 
resulting in non-random sampling biases. In most mammals, 
females have smaller home ranges and are more sedentary than 
males. It is clear that polar bear researchers still have a 
very limited understanding of male ranging patterns and their 
effect on gene flow between populations.
    In addition, the geographic boundaries of the populations 
are continually being revised. Just this past year, Canada 
split Parry Channel, Baffin Bay and Queen Elizabeth Islands 
into Lancaster Sound, Norwegian Bay, Kane Basin, Baffin Bay and 
Queen Elizabeth Islands. There is reason to question the 
biological basis for these changing boundary designations 
because of the uncertainty regarding genetic exchange and the 
question of reliability of small biased samples. In short, the 
boundaries appear to be more a convenience for human managers 
than a manifestation of actual biological processes in the 
bears.
    As for population estimates, sex-age composition and life 
history parameters, polar bear habitat makes the collection of 
accurate biological data extremely difficult. This is not a 
reflection on the data collectors. It is an inherent 
characteristic of the remote habitat and the species. 
Especially for the northern populations that have been little 
studied, population and life history data are poor. The Service 
has correctly disapproved several populations for which data 
are incomplete or for which Canada currently rates the 
population estimates as fair or poor. Based on data through the 
95/96 season, these populations include Gulf of Boothia, part 
of Queen Elizabeth Islands, Baffin Bay, Davis Strait and 
Southern Hudson Bay.
    There are still many unknown or poorly described aspects of 
polar bear life history and reproductive behavior. Much of the 
known life history information comes from Western Hudson Bay. 
This southern population, the most accessible to researchers, 
demonstrates higher birth rates, shorter interbirth intervals, 
and larger average litter sizes than other populations, all of 
which suggests that it is increasing relatively faster or 
declining less rapidly than other populations. In short, many 
management model assumptions come from an apparently 
nonrepresentative, best-case population, and using best-case 
assumptions can easily lead to over harvesting.
    Another factor influencing the Service's disapproval of 
several populations is that these populations cross national 
and provincial boundaries and joint management agreements are 
not yet in place. For example, Canada and Greenland will not 
finalize negotiations on joint management agreements until they 
complete research involving their shared populations, including 
Parry Channel/Baffin Bay. Given the lack of implemented joint 
management agreements, the Service was correct in deferring 
approval, as these populations do not yet have monitored, 
enforced and demonstrably sustainable management programs.
    I understand that the Safari Club and Dr. Jones, a fellow 
witness here, believe that the Service was in error evaluating 
the various polar bear populations in Canada separately rather 
than as a whole. I believe this is one aspect of the situation 
about which the HSUS might agree with them. The HSUS also 
believes that Canada should have been evaluated as a whole 
rather than as a series of management units. We base this 
belief on a strict legal interpretation of the language of the 
1994 amendments, which refers to Canada, not subpopulations 
within Canada.
    Yet both the Northwest Territories authorities and the 
Service acknowledge that Ontario does not protect pregnant 
females and females with cubs and Quebec's quota system is 
fixed and guaranteed and is not based on current scientific 
information. Thus, had the Service considered Canada as a 
whole, it would not have been able to make the first two 
statutory findings.
    In conclusion, the HSUS believes the Service was correct to 
disapprove imports from seven of the 12 populations in Canada, 
as the management programs for these populations do not meet 
the statutory requirements for being scientifically sound, 
adequately monitored and enforced.
    Thank you for your consideration of our comments. I am 
prepared to answer any questions you may have.
    [Statement of Naomi Rose may be found at end of hearing.]
    The Chairman. Dr. Jones.

          STATEMENT OF DR. J.Y. JONES, DUBLIN, GEORGIA

    Dr. J.Y. Jones. Mr. Chairman and members of the Committee, 
I am J.Y. Jones, an ophthalmologist from Georgia. I am a 
lifelong hunter, and I speak today on behalf of America's 80 
million sportsmen and sportswomen. Thank you very much for 
allowing me to testify in that capacity. And thank you, 
Congressman Norwood, for introducing me.
    I must identify the fact that I am a devout Christian, 
having dedicated myself to Jesus Christ many years ago after 
finding no real meaning in life apart from him. I mention this 
to draw a significant parallel. I cannot disavow what I hold as 
my core beliefs, for to deny them denies who I am. In the same 
way, I am a hunter. I can trace my ancestry to soldiers who 
fought in the Revolution and the Civil War. Our menfolk were 
always hunters. I believe that all men are hunters in their 
inmost being, but in my case the opportunity to hunt at a young 
age cemented this innate aspect of my character into a dynamic 
force.
    I connect this with my Christian faith to draw the parallel 
I mentioned. My faith in Christ is not what I do, but what I 
am. So it is also with my hunting avocation. As our 
Constitution declares that I have a right to the pursuit of 
happiness within the rational constraints of the law, surely 
this includes my right to hunt. My heritage is under siege 
today, and the necessity of this hearing is proof of that.
    I would like to tell the story of Dr. Michael Werner. Dr. 
Werner was a general surgeon from Wyoming who hunted and 
harvested a polar bear in Canada in 1990. In 1993 he developed 
a type of brain tumor. He suffered through multiple brain 
operations, but he died in 1995. He never saw his bear 
imported.
    Mr. Joe Cafmeyer from Michigan is now 84 years old. He has 
waited for 24 years to import his polar bear.
    Canada's Eskimos have already benefited from the 1994 polar 
bear sport hunting amendments to the MMPA, though this cannot 
be sustained unless the rules are dramatically improved. The 
facts: the total harvest of polar bears has declined by about 
106 bears per year since the law was changed. The value of 
sport hunts to the Eskimos has increased by a factor of three.
    I am here today to protest three major points. First, there 
is the issue of grandfathering bears that are stored in Canada. 
The final rule gives six excellent reasons why all these bears 
should be approved for import. Paradoxically, ``based on 
comments received and a review of the MMPA'', the Service then 
disapproves these bears unless they were taken from an approved 
population. One must ask the Service why Congress specifically 
included bears already stored in Canada in the amendments to 
the MMPA. Did they think Congress really expected hunters like 
Joe Cafmeyer to select the population 24 years ago that would 
be importable today? One couldn't do that with a 1996 hunt! The 
answer is obvious. Congress intended to clear up the backlog of 
stored bears. The Service has taken some bad advice in ignoring 
this relevant fact.
    Second, only five of Canada's 13 polar bear populations 
were approved for import whether harvested in the past, present 
or future. These disapprovals were based on two super-criteria, 
neither mandated by Congress, those being that each 
subpopulation be either stable or increasing, and that 
comanagement agreements with other jurisdictions be in place. 
The Service consistently refers to Canada's 12 polar bear 
populations in the final rule.
    At the February 1996 Polar Bear Technical Committee meeting 
in Quebec City, which I attended, this key IUCN group approved 
redrawing three old populations into four new populations. Only 
two of these new populations are shared with Greenland, where 
the Service has taken the unprecedented step of requiring as an 
import criterion an agreement between two foreign governments.
    The new Lancaster Sound population is entirely within 
Canada and entirely within sustained yield. In some years past, 
Lancaster Sound has been home to the largest number of total 
sport hunts. While this population is mentioned, it is not 
considered a new population for purposes of permit issue. The 
Service had two representatives at that meeting in Quebec City, 
but this new information failed to make the final rule. Later 
data are included in the final rule in at least two other 
instances. It appears that the Service wants to approve as few 
polar bear import permits as possible.
    Lastly, in virtually every communication I have had with 
the Marine Mammal Commission, opposition was expressed to 
Congress going around the waiver provision built into the 
original law, a process which would have kept the MMC on center 
stage. Throughout the rulemaking, the MMC has erected 
barricades to obstruct importation of polar bear trophies as 
mandated by Congress, bringing up repeatedly legalistic, non-
scientific questions that Congress by its action has already 
answered. I believe this obstructionism sheds light on why so 
much good data are ignored in the final rule. We need to remove 
the MMC from the decisionmaking process when it comes to polar 
bears.
    Please consider these facts:
    Congress intended for U.S. hunters to bring home polar bear 
trophies stored in Canada, but that process has been 
deliberately obstructed.
    Congress intended approval of imports of all legally 
harvested future polar bear trophies from Canada, but the 
intent has been subverted.
    Congress intended for the MMC to help expedite the process, 
but they have instead obstructed the process.
    Please do something to help us. Thank you for the 
opportunity to comment.
    [Statement of Dr. J.Y. Jones may be found at end of 
hearing.]
    The Chairman. Thank you, Doctor. I appreciate your 
decoration and your enthusiasm. You have been in it a long 
time.
    David, first let me say--is it Dave or David?
    Mr. Akeeagok. David.
    The Chairman. David. Let me first say that I am not to tell 
you or your government how to manage your game. This is the 
Administration who is trying to do it, an agency within the 
United States Government. That is why we are having the 
hearings today, to try to find out how they arrived at this 
decision. But one of the things you said, I think, in your 
testimony that is counteracted by Dr. Rose is that they claim 
that sport hunting is not subsistence hunting. And you said 
that sport hunting is subsistence hunting. Can you explain that 
again.
    Mr. Akeeagok. To us sport hunting is subsistence because, 
for example, the government gives us in Lancaster Sound 25 
bears for us to have. They give us--they say there are 25 bears 
for you to eat. And we take that and say OK, we will take those 
and then we say in a meeting, the whole community comes in and 
says we will set aside this many for sport hunters for them to 
take home to them, but we will keep the meat. So when a sport 
hunter comes in and shoots that bear, he leaves the meat to us, 
and that provides meat for us, which is subsistence hunting.
    The Chairman. In reality what is happening, they are 
pulling the trigger. They are taking the hair, which you can't 
eat, and they are leaving you the meat?
    Mr. Akeeagok. Yes.
    The Chairman. That is subsistence.
    Mr. Akeeagok. Yes, sir.
    The Chairman. All right, now, another question. What if all 
hunters stopped coming up there, what would happen to your 
community?
    Mr. Akeeagok. For now, we are relying on money, as in any 
other world. If sport hunting stops, one third of the economy 
will collapse, and those that have invested in their time to do 
sport hunting will not be able to function.
    The Chairman. When you hunt, sport hunting or most of your 
quota of sport hunting, you don't hunt the sows or the cubs, do 
you?
    Mr. Akeeagok. No, sir.
    The Chairman. You hunt the big boars?
    Mr. Akeeagok. Yes, sir.
    The Chairman. Prior to sport hunting being allowed, did you 
kill sows and cubs?
    Mr. Akeeagok. Prior to the '50's that was the case, but 
with the law that was agreed upon, sows and cubs were not 
allowed. But if a sow has no cub, we are still allowed to hunt 
those.
    The Chairman. Well, anyway, David, I appreciate you coming 
all this way, because this was our understanding, that in fact 
it improved the population of the polar bear and was a 
conservation method.
    Dr. Rose, do you agree that the Inuits or the Eskimos have 
a right to hunt subsistence?
    Dr. Rose. The HSUS does not oppose subsistence hunting in 
Canada or in Alaska.
    The Chairman. He just explained subsistence hunting. Do you 
agree with that interpretation?
    Dr. Rose. I respectfully disagree with it, because although 
the meat is left behind in the community, so is $20,000.
    The Chairman. So what is wrong with that?
    Dr. Rose. I am not--I don't think there is anything wrong 
with them wanting to make a living. I certainly don't think 
there is anything wrong with that, but----
    The Chairman. It is the only thing available, so what is 
wrong with it?
    Dr. Rose. I have concerns about putting that much value on 
the animal which makes--there is pressure there. I mean, you--
--
    The Chairman. Now wait a minute now. The pressure----
    Dr. Rose. There is pressure there to increase the----
    The Chairman. How many are they allowed to shoot?
    Dr. Rose. What is the quota?
    The Chairman. Yes, what is the quota?
    Dr. Rose. It is different for each population.
    The Chairman. Now wait a minute. Let us use David.
    Dr. Rose. 25.
    The Chairman. OK, now where does the pressure come from? 
They make a decision what shall be shot and not be shot, but 
they put a value which is important to them, and they don't 
kill the sows and cubs. They kill the big boars. Now what is 
wrong with that principle?
    Dr. Rose. The population estimates are based, as I said in 
my testimony, on numbers that I consider to be not robust. And 
if there is such a value placed on the animal, I have grave 
concerns that there will be pressure on the managers to say 
that there are in fact more bears in a population than there 
really are. That has already been done. There was----
    The Chairman. Where?
    Dr. Rose. In--let me get this correct. In Davis Strait 
there were believed to be 950 bears and the quota was 58 bears. 
And the model that they said used that in order to sustain 58 
bears there should really be 1400 bears in that population, so 
they changed the number to 1400 bears. They came up with 450 
bears because that was what the----
    The Chairman. Did they kill 450 bears?
    Dr. Rose. No, but the quota was only sustainable under 
their model if there were 1400 bears, and they originally 
thought there were only 950.
    The Chairman. Let us get back to the permits. Did your 
group or yourself individually contact the Fish and Wildlife on 
this issue?
    Dr. Rose. No, sir.
    The Chairman. Nobody at all talked to them?
    Dr. Rose. No, sir.
    The Chairman. Nobody communicated to them, in fact, that 
there was a possibility of a lawsuit?
    Dr. Rose. Not to my knowledge.
    The Chairman. Not to your knowledge?
    Dr. Rose. Not to my knowledge.
    The Chairman. All right, because I am going to get those 
documents.
    Dr. Rose. And I am the only mammal scientist at the HSUS 
and I would have done it if anybody.
    The Chairman. I realize that, but I am going to get the 
documents, so the next time if there is any fingerprints----
    Dr. Rose. We submitted comments, sir. We submitted comments 
during the public comment period.
    The Chairman. Oh, comments?
    Dr. Rose. Yes.
    The Chairman. All right, you submitted--there was no 
contact, but you submitted comments?
    Dr. Rose. I am sorry. I thought you meant outside of the 
public comment process. I am sorry. I misunderstood you.
    The Chairman. All right, at least we can get that part 
straightened out.
    Dr. Rose. We submitted three sets of comments.
    The Chairman. Dr. Morrill, you are not an expert on polar 
bears, are you?
    Dr. Morrill. No, sir, I am not.
    The Chairman. You base your testimony on?
    Dr. Morrill. I base my testimony on the fact that I have 25 
years experience as a wildlife biologist, that I am familiar 
with sustainable use programs in three continents of the world 
and have overseen different projects and programs pertaining to 
sustainable use and wildlife management.
    The Chairman. Would you say that the testimony that the 
Fish and Wildlife presented today has any image of 
conservation?
    Dr. Morrill. I am sorry?
    The Chairman. The testimony of the Fish and Wildlife, is 
there any image of conservation in there?
    Dr. Morrill. In what Fish and Wildlife Service was saying?
    The Chairman. About the 100 bears--I am going to get back 
to Dr. Rose, why she objects to the 100 bears coming in. I 
don't understand, still don't understand that.
    Dr. Morrill. I listened to--you can make conservation out 
of anything. They were talking about regulation, and 
conservation, of course, usually fits within regulation in some 
form, but conservation occurs on the ground in the place where 
the animals are involving the people where the animals are. 
That is where conservation occurs. It doesn't, unfortunately, 
occur in Washington, D.C.
    The Chairman. Dr. Rose, again, are you supporting or 
objecting to the importation of the dead bears?
    Dr. Rose. This may surprise you, and if you do look at our 
comments to the Fish and Wildlife Service, we actually--I will 
be very honest with you, we just oppose the entire import 
provision in the MMPA. We opposed it at the time. Again, the 
record shows that. So we don't think any bears from Canada 
should be imported into the United States. So what will 
surprise you is to find that I do find that this final rule 
which says that prior bears, you know, pre-amendment bears 
can't come in but, you know, bears that have been approved--
populations that have been approved can come in but populations 
that have not been approved can't come in, it does strike me as 
being somewhat illogical.
    The Chairman. It is not common sense, is it?
    Dr. Rose. I am not disagreeing with that, however I do 
oppose the whole permit import----
    The Chairman. Oh, I understand where you are coming from 
there, but the idea that the base says you can't import a dead 
bear----
    Dr. Rose. Our comments stated we felt that the amendments, 
the language of the law, said that they did have to look at the 
past history, the past conservation management history. They 
disagreed with us. We disagree with them. I told you we didn't 
agree with every element in the final rule at the beginning of 
my testimony.
    The Chairman. The gentlelady from Wyoming.
    Mrs. Cubin. I don't have any questions.
    The Chairman. The gentlelady from Idaho.
    Mrs. Chenoweth. Mr. Chairman, I just have a few questions. 
And then I will yield back the balance of my time. Dr. Rose, 
you mentioned that--on page 2 at the top of your testimony that 
little is known about the sex differences and ranging behavior 
and that males range more widely than females and that--on page 
3, paragraph 2, you say part of the problem here is that many 
contaminants from industrialized nations thousands of miles 
away end up in the food chain in the Arctic where the polar 
bear, as top predator, concentrates them in its tissue. That 
may, may, result in the bears experiencing decreased fertility 
or a diminished immune response. Are you positive? Do you have 
scientific information to back up this allegation in your 
testimony that the bears are experiencing decreased fertility 
and a diminished immune response?
    Dr. Rose. The whole point of my testimony, ma'am, is that 
scientists are not sure about these things. I did say may, and 
I am very careful to use that sort of language when we don't 
have positive proof. Science very rarely does, but with polar 
bears in particular the information is particularly non-robust, 
in my opinion, and therefore it is the very potential for this 
sort of thing that causes me concern. The precautionary 
principle should apply.
    Mrs. Chenoweth. You go on to state that given the 
vulnerability of the Arctic ecosystem to environmental 
degradation, which I really can't seem to put together, 
including the potential for global warming to shrink the polar 
bear's habitat.
    Dr. Rose. Uh-huh.
    Mrs. Chenoweth. Now this seems to be reaching very, very 
far in order to justify these people not being allowed their 
trophy.
    Dr. Rose. All of that testimony was simply to set the stage 
for saying that the polar bear, and particularly because of its 
marginal environment, because of its harsh marginal environment 
and because of the threats that it is facing from, as I said, 
the potential of things like global warming and contaminants, 
organochlorines and pollutants, that this is a species that is 
inherently unsuited to a frivolous sport hunt.
    Mrs. Chenoweth. At the bottom of your testimony on page 5, 
you indicate that in spite of all the global warming and all 
the toxic stuff, that these industrialized nations are sending 
thousands of miles away to influence their food chain and their 
tissues and so forth, that increased sightings and encounters--
you admit to increased sightings and encounters which could 
result in the redistribution of the population in question as a 
result of more bears moving into an area frequented by hunters. 
Now that is very, very inconsistent.
    Dr. Rose. No, it is not, ma'am, because what I was saying 
was that, for instance, global warming could be forcing the 
population farther south. In other words, local hunters would 
in fact see more bears, not because there were more bears but 
because the bears that used to be farther north have now moved 
south. So the numbers are the same, but the density has 
increased.
    Mrs. Chenoweth. People are seeing more bears, but we know 
very little about it.
    Dr. Rose. I am simply offering an alternate hypothesis that 
the managers don't seem to be considering.
    Mrs. Chenoweth. And your final part of your testimony, 
which you did not offer verbally, was that Dr. Jones, who I 
think is one of the finest witnesses that we have ever had 
here, it reads Dr. Jones in his testimony viciously excoriates 
the Marine Mammal Commission for its conduct on this issue. 
Doctor, there is no way this gentleman could be vicious, no way 
at all. And I think that this pie in the sky non-scientific 
opinion is very little reason to oppose people being allowed--
before this rule came in, people being allowed to bring their 
trophies into America. I think that we are just seeing a 
personal opinion that is influencing, and I think we will find 
that, influencing a policy that is sadly in opposition to that 
which the Congress directed. I am very sad to see that. Someday 
we are going to have to get back to the point where we deal 
with realities and where we don't attack people like Dr. Jones. 
I hope someday while I am still here in Congress that we are 
dealing with facts and not opinions. Thank you, Mister--Madam 
Chairman.
    Mrs. Cubin. [presiding] I wanted to express my appreciation 
to Dr. Jones for bringing up Mr. Werner. He is from my 
community. I knew him all my life, and I do appreciate your 
bringing up his memory.
    Mr. Norwood, do you have questions?
    Mr. Norwood. Yes, ma'am, I do. And some of these are yes 
answers, please, for in terms of time. But first let me say, 
David, that in your testimony you said our country disapproves 
or your management system. And I want to just humbly tell you 
that not everyone in our country does disapprove of your 
management system. There are some people who do, but surely you 
know many of us do not, too.
    Ms. Rose, I am sort of interested in your written testimony 
attacking my friend, Dr. Jones, too. And I have noticed that 
you seem to imply that he is a pawn of the Sierra Club and that 
he is this----
    Dr. Rose. Safari Club, sir.
    Mr. Norwood. Safari Club. And you seem to say that he is a 
vicious individual, and I thought I would talk about that just 
a minute, because, you know, I can't imagine what you are going 
to call me when I try to defund the Marine Mammal Commission, 
but probably worse than vicious. But just so--for the record, 
my friend, who is a hunter and a conservationist, Dr. Jones, is 
not just a member of the Safari Club. He is a member of the 
National Rifle Association and the North American Hunting Club 
and the Foundation for North American Wild Sheep, the Grand 
Slam Club, Quail Unlimited, Ducks Unlimited, National Turkey 
Federation, Foundation of North America Big Game, Rocky 
Mountain Elk Foundation, Middle Georgia Gunners Association, 
Georgia Forestry Commission, Georgia Outdoor Riders 
Association, National Wildlife Refuge Association, The Wildlife 
Society.
    And I would submit to you, madam, that those groups do more 
for--pardon me, I am upset with you--with conservation in this 
country than perhaps the Humane Society ever thought about 
doing. It doesn't require a comment.
    Now I want to just ask you some simple questions. Did the 
Humane Society find that it was in agreement with the ruling 
that the Wildlife Service has recently put out regarding polar 
bears?
    Dr. Rose. We agree with their decision to defer those seven 
populations. We do not agree with their findings that the 
Canadian sport hunt program is monitored and enforced in 
agreement with the International Agreement on Conservation of 
Polar Bears, and we don't find that it is scientifically sound.
    Mr. Norwood. Well, would you have liked for them to have 
been a lot tougher?
    Dr. Rose. Absolutely, sir.
    Mr. Norwood. So you worked hard in order to try to make 
sure that they did not really promulgate a rule that went along 
with the intent of Congress, that you and your group knew a lot 
more about all this than the people in this country who write 
the laws. And there was no excuse in us doing what Congress 
wanted to do when your group knew so much better. Was that the 
approach?
    Dr. Rose. No, sir.
    Mr. Norwood. No?
    Dr. Rose. We submitted comments, as we are allowed to do 
under the democratic system, to submit public comment during 
the public comment period when rules and regulations are 
proposed. And we agreed with the Service's interpretation that 
Congress directed the Secretary of the Interior to make certain 
findings. We disagree that--with their findings. We don't think 
that the four findings they made were correct, and so in fact 
we disagreed in that regard with the Service, and by the way, 
with the Marine Mammal Commission.
    Mr. Norwood. Well, so you are saying that the Humane 
Society really felt that the Marine Mammal and Wildlife should 
have gone a lot further and totally ignored the law passed by 
Congress in 1994? That was--you have every right to submit 
comments, but within your comments were you trying to push 
these agencies to write rules and regulations that were 
absolutely the opposite and went much further than Congress 
wanted to have happen?
    Dr. Rose. We were reading the statute on its face that said 
that Congress had directed the Secretary of the Interior to 
make certain findings. And we--in other words, it was up to the 
Secretary to make those findings, to make those decisions. And 
we disagreed with those decisions that were made.
    Mr. Norwood. Is the answer yes or no? Did you push through 
comment to try to get these agencies to undo what Congress 
wanted to have done?
    Dr. Rose. In our opinion, no, sir, we did not.
    Mr. Norwood. There probably is a difference in opinion 
there. Let me ask you this. Have you ever been to the Northwest 
Territories of Canada to examine their polar bear management 
program firsthand?
    Dr. Rose. I am sorry, sir, could you repeat that, please?
    Mr. Norwood. Have you ever been to the Northwest 
Territories of Canada to examine their polar bear management 
program firsthand?
    Dr. Rose. No, sir, but I have been in communication with 
the Northwest Territories.
    Mr. Norwood. Do you know where it is based, the management 
program?
    Dr. Rose. In Yellowknife.
    Mr. Norwood. In Canada?
    Dr. Rose. Yes, sir.
    Mr. Norwood. Where is it based?
    Dr. Rose. In Yellowknife.
    Mr. Norwood. I am asking you if----
    Dr. Rose. I have been in contact with the biologists who 
are in the Department of Renewable Resources, the Department of 
Resources and Wildlife----
    Mr. Norwood. Well, the next time you call them you will 
probably want to know they have moved. Have you ever----
    Dr. Rose. To Iqaluit, yes, sir.
    Mr. Norwood. Have you ever attended one of the IUCN Polar 
Bear Specialty Group meetings?
    Dr. Rose. Again, no, sir, but I am in communication with--
--
    Mr. Norwood. Are you a member of that body?
    Dr. Rose. No, I am not.
    Mr. Norwood. You mentioned in your testimony the ever-
changing boundaries of the Canadian polar bear populations. Are 
you aware that such changes are submitted to the IUCN Polar 
Bear Technical Committee for review and that the scientific 
data must pass scrutiny of this international body, and do you 
know that the last time they were changed was before 1996?
    Dr. Rose. Yes, I am aware that----
    Mr. Norwood. Are you familiar with all that?
    Dr. Rose. I am aware of how the ICUN PBSG reviews those 
things, yes, sir.
    Mr. Norwood. You mentioned in your testimony that most of 
the scientific studies have been done on female polar bears?
    Dr. Rose. According to my review of all the research, yes, 
sir.
    Mr. Norwood. I wonder why that is?
    Dr. Rose. My guess is because they are easier to approach, 
handle, anesthetize. They are more easy to--they are easier to 
find because of their ties to denning sights. I really----
    Mr. Norwood. David, is that right? Are females easier to 
find than males?
    Mr. Akeeagok. No, sir. The females are harder to find than 
the males.
    Mr. Norwood. That is what I would think. Are they easier to 
work with? I mean, are they nicer than the males?
    Mr. Akeeagok. Pardon?
    Mr. Norwood. Are the females nicer than the males?
    Mrs. Cubin. Yes, they are.
    Mr. Norwood. Polar bears, David. Well, let me just help 
you, because the reason that we have our information on females 
is because the neck of an adult male polar bear is larger than 
the head and satellite tracking collars fall off the males 
pretty easily. But males, just so you will know for the future, 
are instead marked and recaptured by tattooing a mark on the 
under side of the lips rather than placing the tag around their 
neck. That will be of interest later on.
    You say that there are relatively few polar bears tagged 
each year for scientific purposes. Do you know how many are 
tagged by the Northwest Territories each year?
    Dr. Rose. About two or three hundred a year, to my 
understanding.
    Mr. Norwood. That, just so you will know for the future, is 
436 bears, about 20 percent of the population.
    Are you aware of a recently published article in 
International Bear News, February 1997, Volume 6, Number 1, 
page 12, in case you want to look it up, which suggests that 
cannibalism is five to ten times higher in non-hunted bear 
populations as opposed to hunted populations? Are you aware of 
that?
    Dr. Rose. I am not aware of that. I am aware that Dr. Ian 
Stirling, who is a Canadian biologist, stated that he does not 
believe cannibalism is a significant mortality factor in polar 
bears.
    Mr. Norwood. David, do you find that when there is an 
abundance of bears, in particular polar bears, that there is 
cannibalism that goes on? In other words, the male eat their 
young, that kind of thing?
    Mr. Akeeagok. Yes, sir.
    Mr. Walter Jones. J.Y., tell me about that.
    Dr. J.Y. Jones. I would be glad to comment on that. It is 
true that cannibalism in the Canadian population is not a major 
problem, but I would point out that it is eminently hunted. We 
feel that it probably is a major problem in the Alaskan 
population, which is very lightly hunted, and in other polar 
bear populations around the world. But there is no question in 
the hunted Canadian population that Dr. Stirling would be 
addressing that it would be a minor problem. That is a hunted 
population.
    Mr. Norwood. But if it were not, because we can't import 
bears, we would expect, perhaps, that the numbers of bears 
might remain somewhere around the same because of cannibalism?
    Dr. J.Y. Jones. Well, you might--I don't know that you 
could infer that it would go up or down because of cannibalism, 
but I think what you wind up with is a major population shift 
toward older males and fewer cubs and females. This cannibalism 
study that you refer to demonstrated very clearly that the 
victims of cannibalism were not just cubs either. There were 
female bears as well, and so what you wind up with is a shift 
toward the very population that sport hunters are after or 
would like to harvest, which is the adult male polar bear. 
The--you require a certain number of adult male polar bears, of 
course, to maintain the population just for purposes of 
fertility and breeding, but when you have too many of them and 
when these old adult males are not removed from the population, 
you have a shift toward the older adult male and a shift away 
from cubs and females. It is as simple as that.
    The Chairman. How much time do you want?
    Mr. Norwood. One last final question.
    The Chairman. Before you do that, I heard the lady. She 
said how disgusting those old males are.
    Mrs. Cubin. Excuse me, Mr. Chairman. I said and we all know 
how disgusting old males----
    The Chairman. Old males are. May I suggest respectfully 
some younger ones are also disgusting.
    Mr. Norwood. Dr. Morrill, just a brief question, because I 
wasn't sure I heard you right in your comments. We have heard 
today that the Wildlife Service has approved five of the 12 
management units in Canada. And I thought you said that perhaps 
if we would listen to the Canadians just a little bit we would 
find that they would in their management system have approved a 
great deal more than five out of 12. Did I hear that right?
    Dr. Morrill. At the Polar Bear Specialist Group in 19--
January of 1995--excuse me, 1996, the Canadians showed that all 
except one population was at a sustainable level. So given what 
Congress had said in the four conditions, then the Canadians--
11 out of the 12 at that--excuse me, 12 out of the 13 at that 
time, because they divided one of the areas during that 
particular meeting, 12 out of the 13 would have been approved.
    Mr. Norwood. And that was some of the testimony in 1994 
that we took justifying the law that was passed then.
    Ms. Rose, my last question, just because I am real curious 
about it. I understand that the Canadian Humane Society has 
sued your Humane Society. What is that all about?
    Dr. Rose. I couldn't tell you, sir. I am the Marine Mammal 
Scientist. I am not in the executive level of the Humane 
Society of the United States.
    Mr. Norwood. Well, why--did the courts find you guilty--not 
you personally, the Humane Society guilty in misappropriation 
of funds?
    Dr. Rose. I am sorry, I can't comment to that, sir.
    Mr. Norwood. Why?
    Dr. Rose. Because I am low on the totem pole. I am just in 
the wildlife department. I don't----
    Mr. Norwood. Do you not know the answer?
    Dr. Rose. I do not know the answer, sir.
    Mr. Norwood. Could you give us the name of somebody who 
might know the answer?
    Dr. Rose. You are free to contact Mr. Paul Irwin or Ms. 
Patti Forkan at the Humane Society of the United States.
    Mr. Norwood. Were you not aware of this suit?
    Dr. Rose. Oh, I am certainly aware of it. It is mentioned 
in the Safari Club's publications and in other publications.
    Mr. Norwood. And so within inside the Humane Society you 
all didn't talk about this we are being sued, for pity sakes, 
by another Humane Society or talk about the fact the courts 
have found us guilty for misappropriation of funds? You all 
didn't talk about that?
    Dr. Rose. Do you want me to testify to office gossip or 
what I know for a fact?
    Mr. Norwood. I am not really asking you did you read the 
summary of the court records. I am asking you was that 
generalized knowledge inside the Humane Society?
    Dr. Rose. I was aware of it, but I just don't know the 
details, sir.
    Mr. Norwood. OK, well, I don't either. I am just curious 
how in the world that could have happened. There must be a 
difference in opinion in the Humane Society.
    Dr. Rose. You do have to contact my bosses. I really don't 
know.
    Mr. Norwood. Thank you very much, Mr. Chairman.
    The Chairman. The gentlelady, do you have another question?
    Mrs. Cubin. Mr. Chairman, yes, I didn't ask questions 
before, and I just want to make a brief statement. 
Philosophically Dr. Rose and I are very, very far apart, but, 
you know, I think that the harm that has been done here has 
been done by the bureaucracy and not by people interested in 
this issue. I think it is perfectly acceptable that people 
disagree on issues philosophically and respect one another for 
that, and I just kind of want to go on the record that way. Any 
wrongdoing that I see was not done on the part of the 
interested public. It was done on the part of our own 
government.
    The Chairman. Only if they were involved with the 
decisionmaking by the agency which had the responsibility to 
implement the Congressional act and intent of the law. Then I 
get very concerned.
    Mrs. Cubin. Mr. Chairman.
    The Chairman. Yes.
    Mrs. Cubin. I would even disagree with you on that. If I 
had----
    The Chairman. I wouldn't expect you not to do anything 
else, but go ahead.
    Mrs. Cubin. If I--you know, I think that as a citizen 
concerned about an issue I have every right to deal at every 
level to get my view represented. I think when I am an elected 
official, when I am a bureaucrat it is a whole different deal, 
but anyway.
    The Chairman. I understand.
    Mrs. Cubin. For the record----
    The Chairman. I am just saying that my concern is for some 
reason this July of 1995 complete flip flop. I mean this is the 
most amazing thing I have ever seen. And the lawyer agree they 
wrote it. And that didn't happen overnight. Somebody working--I 
am going to restate it again. The lawyers in this room, the 
agencies in this room supported this legislation. If there was 
a problem when we wrote it, they should have let us know at 
that time. And that is what I am after. This is, like Charlie 
Norwood said, there is something very wrong here. And this is 
why our government has lost its credibility big time.
    The Chairman. And, David, again I want to thank you for 
being here. That bell, don't jump, that bell is for a vote. And 
I hope to get up to your area sometime. I had the privilege of 
harvesting a polar bear in 1964 before all this nonsense took 
place.
    And we do have an abundance, Doctor, of polar bears in 
Alaska to the point now we have lost three persons this last 
year. They also like to chew on people. An abundance of them 
and a terrible management system. If I can ever implement a 
program such as David has, I am certainly going to try to 
encourage it, because I think it is the right way to go. It 
helps the local people, but more than that it manages species 
that really now have some serious problems.
    With that, we have a vote. This hearing is adjourned.
    [Whereupon, at 1:38 p.m., the Committee was adjourned; and 
the following was submitted for the record:]

 Statement of the Honorable George Miller, a U.S. Representative from 
                               California

    Mr. Young has asked our speakers to comment on whether the 
final rule reflects the legislative intent of the 1994 
Amendments to the Marine Mammal Protection Act. Before these 
proceedings begin today, I would like to take a few moments to 
comment on the issues of intent and purpose.
    We should remember that the purpose of the Marine Mammal 
Protection Act is to protect marine mammals and their habitat. 
The 1994 Amendments did not change this purpose. Any rule 
promulgated in accordance with the Amendments, must be 
consistent with the overall Act and must allow only for 
sustainable activities.
    The Committee Report for the 1994 Amendments is quite clear 
that it is our intent to insure that sport hunting of polar 
bears does not adversely affect the sustainability of polar 
bear populations throughout their range in Canada. It is not 
sufficient that the overall numbers of polar bears grow, each 
separate polar bear population must grow as well, ideally to 
the MMPA goal of its optimum sustainable population.
    I understand that there is some debate regarding whether 
sport trophies taken prior to the enactment of the 1994 
amendments should be subject to the same conservation 
provisions as are applied to sport trophies taken after 1994. 
Again, I want to reference the Committee Report--which I have 
been told was agreed to by Mr. Young's staff at the time, and 
we have no dissenting views to indicate otherwise. The Report 
states: ``It is the Committee's intent that all conditions 
outlined by this amendment concerning importation of polar bear 
trophies taken prior to the adoption of this amendment have to 
be met.''
    I think we are all in agreement that agency decisions 
should be based upon solid scientific data and in accordance 
with sound, and effective, management principles. But what 
action is to be taken when the data is incomplete or practices 
are questionable? Was it the intent of Congress and the MMPA to 
err on the side of conservation and protection, or to err on 
the side of increased marine mammal takings?
    Finally, I think we should remember that the MMPA 
Amendments of 1994 require the Secretary to consider both the 
Convention on International Trade in Endangered Species (CITES) 
as well as the 1973 Agreement on the Conservation of Polar 
Bears when analyzing Canada's polar bear management plans. 
These international agreements embody sound hunting and 
management practices. To take one example, the Polar Bear 
Agreement requires that pregnant and nursing females, as well 
as their cubs, be protected from hunting activities. Decisions 
based on principles such as these are ones we all can support.
    I look forward to hearing today's testimony and substantive 
discussion of the issues.

                               ----------

Statement of Hon. Randy ``Duke'' Cunningham, a U.S. Representative from 
                               California

    Chairman Young, Ranking Member Miller, and members of the 
Committee, thank you for the opportunity to speak in support of 
this resolution, H.J.Res. 59, disapproving the Department of 
Interior's Final Rule titled Importation of Polar Bear Trophies 
from Canada Under the 1994 Amendments to the Marine Mammal 
Protection Act.
    Today is the third anniversary of the date that the 
President signed the polar bear amendments to the Marine Mammal 
Protection Act (MMPA). Three full years have passed, and the 
U.S. Fish and Wildlife Service has yet to issue its first 
permit.
    As a fiscal conservative, I am very sensitive to wasted 
time and dollars. In this case too many of both have been 
thrown away by the agencies involved. Thousands of dollars have 
been lost in conservation funds that could have been generated 
by the issuance of permits. Thousands of dollars have been 
denied the Inuit people who depend on this vital resource. 
Thousands of sportsmen have stayed home or gone elsewhere, 
because of the failure by the Fish and Wildlife Service to 
carry out the intent of Congress.
    This fiasco was a long time coming. To begin, Congress very 
thoroughly considered the polar bear issue in 1994. We 
collected information from both the U.S. Fish and Wildlife 
Service and the Canadian government. When the amendments were 
adopted in 1994, Congress concluded that the Canadian 
government was efficiently managing its polar bear populations. 
Congress provided the Secretary of the Interior tools to make 
sure that the shift to sport hunting as a larger component of 
polar bear management did not threaten the Canadian management 
program. We then asked the Secretary to issue permits.
    Congress certainly did not expect a three-year delay in the 
process. I have tried to understand what went on to create the 
mess by reviewing the process as it unfolded. However, that 
does not answer why the Clinton Administration dragged its feet 
despite clear motivation and direction by members of this 
Committee. I would like to share with you the time line to make 
clear that Congress did its utmost to get this new law 
administered:

    <bullet>April 30, 1994: President Clinton signed the 
amendments to the MMPA.

    <bullet>June 20, 1994: Congressmen Young and Fields wrote 
to the Fish and Wildlife Service asking it to expedite the 
process and that it should use interim regulations to issue 
permits.

    <bullet>August 24, 1994: The Fish and Wildlife Service, the 
Marine Mammal Commission, and the State Department met to 
design an approach for developing findings. The Fish and 
Wildlife Service had a goal of publishing regulations by 
January 1, 1995.

    <bullet>August 29, 1994: The Fish and Wildlife Service 
responded to Congressmen Young and Fields informing them that 
rules need to be developed for the permits and that findings 
have to be made.

    <bullet>September 28, 1994: 25 members of Congress joined 
me in a letter to the Secretary, noting that five months had 
passed with no action and urging him to use his existing 
authority to promptly issue permits.

    <bullet>October 27, 1994: The Fish and Wildlife Service 
published a notice in the Federal Register outlining the 
process it would follow to make the required findings and 
saying that it would issue regulations covering the permit 
procedures.

    <bullet>November 2, 1994: Congressman Jack Fields (R-TX), 
the principal author of the polar bear amendments, wrote to 
Assistant Secretary Frampton in response to the October 27 
notice. He reminded the Assistant Secretary that in 1993, the 
Fish and Wildlife Service had told Congress that sport hunting 
was part of the Canadian management system and that it was not 
harmful or in conflict with the Polar Bear Convention. 
Congressman Fields also reminded the Fish and Wildlife Service 
that it was not Congress' intent to impose management practices 
on Canada and that Congress knew that Canada managed by 
subpopulation. Congressman Fields also recommended to the Fish 
and Wildlife Service that it should stop focusing on the past 
management by Canadian authorities and instead focus on the 
future impact that increased hunting by American hunters would 
have on Canadian polar bear populations.

    <bullet>January 3, 1995: The Fish and Wildlife Service 
published a proposed rule on the permit procedures.

    <bullet>January, 1995: The Fish and Wildlife Service sends 
a draft proposed finding to the Marine Mammal Commission for 
review.

    <bullet>March and April, 1995: The Fish and Wildlife 
Service held a series of internal meetings and prepared draft 
findings.

    <bullet>July 17, 1995: The Fish and Wildlife Service 
published proposed findings. The public comment period was set 
to end on August 31,1995, but was extended through November, 
1995.

    <bullet>September 7, 1995: The Fish and Wildlife Service 
wrote to Congressman Young, saying that it will have a rule out 
shortly (``this fall '') and then it will focus on the issue of 
Parry Channel, where most of the hunting of polar bears occurs 
in Canada, as a separate rulemaking.

    <bullet>November 9, 1995: The Marine Mammal Commission 
provided comments to the Fish and Wildlife Service.

    <bullet>July, 1996: The Fish and Wildlife Service received 
more data on Parry Channel populations but decided not to pull 
back the final rule, which they were preparing, and not to 
publish a new proposal since the research and data-gathering on 
Parry Channel was still ongoing.

    <bullet>August 15, 1996: Draft final rule goes out for 
review and approval by various offices within the Fish and 
Wildlife Service.

    <bullet>October, 1996: The Fish and Wildlife Service 
received more data on the Parry Channel issue. However, it 
decided not to act on the new data at that time because the 
final rule was near final publication.

    <bullet>January, 1997: The Fish and Wildlife Service 
obtained further information about the Parry Channel area from 
the Polar Bear Technical Committee meeting.

    <bullet>February 18, 1997: Final rule published, effective 
March 20, 1997.

    <bullet>March 5, 1997: The Fish and Wildlife Service wrote 
to Canada asking for further information and saying it could 
possibly have a proposed rule on the Parry Channel area out by 
the end of April.

    <bullet>April 22, 1997: The Marine Mammal Commission filed 
a scientific evaluation with a positive finding on management 
of two of the areas into which Parry Channel had been 
restructured: Lancaster Sound and Norwegian Bay.

    Following all of this effort, one would expect the Fish and 
Wildlife Service to publish a comprehensive rule meeting the 
criteria set forward by Congress. Unfortunately, the Fish and 
Wildlife Service has put forward a rule that is incomplete. Its 
final rule contains no provisions allowing for the import of 
grandfathered polar-bear trophies from before 1994. In fact, 
the Fish and Wildlife Service has determined that only five of 
Canada's twelve polar bear populations are stable. In addition, 
according to the Service's own data, there is little, if any, 
hunting of these populations.
    However, the Fish and Wildlife Service determined that it 
was unable to determine the sustainability of any the other 
seven polar bear populations if hunting were allowed. When 
Congress passed the polar bear amendments to the MMPA, we 
considered this issue and instructed the Fish and Wildlife 
Service to consider Canada capable of managing its own 
populations. The Fish and Wildlife Service disregarded this 
information and moved forward with a rule which is inconsistent 
with the intent of Congress.
    For this reason, I would encourage my colleagues to vote 
for H.J.Res. 59, and direct the Fish and Wildlife Service to 
return to Congress a rule which is comparable with the 
amendments we passed in 1994. Mr. Chairman thank you for this 
time.

[GRAPHIC] [TIFF OMITTED] T1402.001

[GRAPHIC] [TIFF OMITTED] T1402.002

[GRAPHIC] [TIFF OMITTED] T1402.003

[GRAPHIC] [TIFF OMITTED] T1402.004

[GRAPHIC] [TIFF OMITTED] T1402.005

[GRAPHIC] [TIFF OMITTED] T1402.006

[GRAPHIC] [TIFF OMITTED] T1402.007

[GRAPHIC] [TIFF OMITTED] T1402.008

[GRAPHIC] [TIFF OMITTED] T1402.009

[GRAPHIC] [TIFF OMITTED] T1402.010

[GRAPHIC] [TIFF OMITTED] T1402.011

[GRAPHIC] [TIFF OMITTED] T1402.012

[GRAPHIC] [TIFF OMITTED] T1402.013

[GRAPHIC] [TIFF OMITTED] T1402.014

[GRAPHIC] [TIFF OMITTED] T1402.015

[GRAPHIC] [TIFF OMITTED] T1402.016

[GRAPHIC] [TIFF OMITTED] T1402.017

[GRAPHIC] [TIFF OMITTED] T1402.018

[GRAPHIC] [TIFF OMITTED] T1402.019

[GRAPHIC] [TIFF OMITTED] T1402.020

[GRAPHIC] [TIFF OMITTED] T1402.021

[GRAPHIC] [TIFF OMITTED] T1402.022

[GRAPHIC] [TIFF OMITTED] T1402.023

[GRAPHIC] [TIFF OMITTED] T1402.024

[GRAPHIC] [TIFF OMITTED] T1402.025

[GRAPHIC] [TIFF OMITTED] T1402.026

[GRAPHIC] [TIFF OMITTED] T1402.027

[GRAPHIC] [TIFF OMITTED] T1402.028

[GRAPHIC] [TIFF OMITTED] T1402.029

[GRAPHIC] [TIFF OMITTED] T1402.030

[GRAPHIC] [TIFF OMITTED] T1402.031

[GRAPHIC] [TIFF OMITTED] T1402.032

[GRAPHIC] [TIFF OMITTED] T1402.033

[GRAPHIC] [TIFF OMITTED] T1402.034

[GRAPHIC] [TIFF OMITTED] T1402.035

[GRAPHIC] [TIFF OMITTED] T1402.036

[GRAPHIC] [TIFF OMITTED] T1402.037

[GRAPHIC] [TIFF OMITTED] T1402.038

[GRAPHIC] [TIFF OMITTED] T1402.039

[GRAPHIC] [TIFF OMITTED] T1402.040

[GRAPHIC] [TIFF OMITTED] T1402.041

[GRAPHIC] [TIFF OMITTED] T1402.042

[GRAPHIC] [TIFF OMITTED] T1402.043

[GRAPHIC] [TIFF OMITTED] T1402.044

[GRAPHIC] [TIFF OMITTED] T1402.045

[GRAPHIC] [TIFF OMITTED] T1402.046

[GRAPHIC] [TIFF OMITTED] T1402.047

[GRAPHIC] [TIFF OMITTED] T1402.048

[GRAPHIC] [TIFF OMITTED] T1402.049

[GRAPHIC] [TIFF OMITTED] T1402.050

[GRAPHIC] [TIFF OMITTED] T1402.051

[GRAPHIC] [TIFF OMITTED] T1402.052

[GRAPHIC] [TIFF OMITTED] T1402.053

[GRAPHIC] [TIFF OMITTED] T1402.054

[GRAPHIC] [TIFF OMITTED] T1402.055

[GRAPHIC] [TIFF OMITTED] T1402.056

[GRAPHIC] [TIFF OMITTED] T1402.057

[GRAPHIC] [TIFF OMITTED] T1402.058

[GRAPHIC] [TIFF OMITTED] T1402.059

[GRAPHIC] [TIFF OMITTED] T1402.060

[GRAPHIC] [TIFF OMITTED] T1402.061

[GRAPHIC] [TIFF OMITTED] T1402.062

[GRAPHIC] [TIFF OMITTED] T1402.063

[GRAPHIC] [TIFF OMITTED] T1402.064

[GRAPHIC] [TIFF OMITTED] T1402.065

[GRAPHIC] [TIFF OMITTED] T1402.066

[GRAPHIC] [TIFF OMITTED] T1402.067

[GRAPHIC] [TIFF OMITTED] T1402.068

[GRAPHIC] [TIFF OMITTED] T1402.069

[GRAPHIC] [TIFF OMITTED] T1402.070

[GRAPHIC] [TIFF OMITTED] T1402.071

[GRAPHIC] [TIFF OMITTED] T1402.072

[GRAPHIC] [TIFF OMITTED] T1402.073

[GRAPHIC] [TIFF OMITTED] T1402.074

[GRAPHIC] [TIFF OMITTED] T1402.075

[GRAPHIC] [TIFF OMITTED] T1402.076

[GRAPHIC] [TIFF OMITTED] T1402.077

[GRAPHIC] [TIFF OMITTED] T1402.078

[GRAPHIC] [TIFF OMITTED] T1402.079

[GRAPHIC] [TIFF OMITTED] T1402.080

[GRAPHIC] [TIFF OMITTED] T1402.081

[GRAPHIC] [TIFF OMITTED] T1402.082

[GRAPHIC] [TIFF OMITTED] T1402.083

[GRAPHIC] [TIFF OMITTED] T1402.084

[GRAPHIC] [TIFF OMITTED] T1402.085

[GRAPHIC] [TIFF OMITTED] T1402.086

[GRAPHIC] [TIFF OMITTED] T1402.087

                                  <all>
</pre></body></html>
